<html>
<title> - REAUTHORIZATION OF THE USA PATRIOT ACT (CONTINUED)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                 REAUTHORIZATION OF THE USA PATRIOT ACT 
                              (CONTINUED)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JUNE 10, 2005

                               ----------                              

                           Serial No. 109-29

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov



                REAUTHORIZATION OF THE USA PATRIOT ACT 
                              (CONTINUED)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2005

                               __________

                           Serial No. 109-29

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                ------

                    U.S. GOVERNMENT PRINTING OFFICE
21-913                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 10, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     1

                               WITNESSES

Ms. Carlina Tapia Ruano, First Vice-President, American 
  Immigration Lawyers Association
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. James J. Zogby, President, Arab American Institute
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28
Ms. Deborah Pearlstein, Director, U.S. Law and Security Program
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34
Mr. Chip Pitts, Chair of the Board, Amnesty International USA
  Oral Testimony.................................................    36
  Prepared Statement.............................................    37

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    61
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    62
Responses from Amnesty International to request for additional 
  information requested by Chairman Sensenbrenner................    70
``Behind the Wire,'' submitted for the record by Deborah 
  Pearlstein, Director, U.S. Law and Security Program............    72
``Getting to Ground Truth,'' submitted for the record by Deborah 
  Pearlstein, Director, U.S. Law and Security Program............   117
``Guantanamo and Beyond: The Continuing Pursuit of Unchecked 
  Executive Powers,'' submitted for the record by Chip Pitts, 
  Chair of the Board, Amnesty International USA, and Congressman 
  John Conyers, Jr...............................................   147
Materials for Hearing Record, ``Reauthorization of the USA 
  PATRIOT Act (Continued),'' (June 10, 2005), submitted by 
  Congressman John Conyers, Jr.
    Article, James Sturcke, ``General Approved Extreme 
      Interrogation Methods,'' Guardian, March 30, 2005..........   311
    Article, Bob Herbert, ``America a Symbol Of . . . ,'' New 
      York Times, May 30, 2005, available on Westlaw at 2005 WLNR 
      8545594....................................................   313
    Article, Neil A. Lewis & Christopher Marquis, ``A Nation 
      Challenged: Immigration, Longer Visa Waits for Arabs,'' New 
      York Times, November 10, 2001, available on Westlaw at 2001 
      WLNR 3372678...............................................   315
    Article, Bob Herbert, ``Stories from the Inside,'' New York 
      Times, February 7, 2005, available on Westlaw at 2005 WLNR 
      1682135....................................................   321
    Article, Tim Golden, ``Threats and Responses: Tough Justice; 
      After Terror, a Secret Rewriting of Military Law,'' New 
      York Times, October 24, 2004, available on Westlaw at 2004 
      WLNR 4788371...............................................   324
    Article, Douglas Jehl, Neil A. Lewis, & Tim Golden, ``The 
      Reach of War: Guantanamo: Pentagon Seeks to Shift Inmates 
      from Cuba Base,'' New York Times, March 11, 2005, available 
      on Westlaw at 2005 WLNR 3773506............................   340
    Article, Tim Golden, Ruhallah Khapalwak, Charlotte Gall, & 
      David Rohde, ``The Bagram File: In U.S. Report, Brutal 
      Details of 2 Afghan Inmates' Deaths,'' New York Times, May 
      20, 2005, available on Westlaw at 2005 WLNR 7990089........   346
    Article, Tim Golden, ``The Bagram File: Army Faltered in 
      Investigating Detainee Abuse,'' New York Times, May 22, 
      2005, available on Westlaw at 2005 WLNR 8112977............   363
    Report, American Civil Liberties Union, ``Independence Day 
      2003,'' July 3, 2003.......................................   370
    Report, Human Rights Watch, ``We Are Not the Enemy,'' 
      November 2002..............................................   393
    Report, Human Rights Watch, ``Presumption of Guilt,'' August 
      2002.......................................................   435
    Report, Human Rights Watch, ``The Road to Abu Ghraib,'' June 
      2004.......................................................   534
    Report, Human Rights Watch, ``Still At Risk,'' April 2005....   570
    Report, Human Rights Watch, ``Getting Away With Torture?,'' 
      April 2005.................................................   664
    Report, American Civil Liberties Union, ``Sanctioned Bias,'' 
      February 2004..............................................   758
    Report, American Civil Liberties Union, ``Unpatriotic Acts,'' 
      July 2003..................................................   782
    Report, Irene Kahn, Amnesty International, ``Denounce 
      Torture, Report 2005, Forward,'' May 25, 2005..............   808
    Statement, Alexandra Arriaga, Amnesty International, ``Stop 
      Outsourcing of Torture,'' May 10, 2005.....................   813
    Amnesty International, ``United States of America, 
      Guantanamo--an icon of lawlessness,'' January 6, 2005......   815
    Report, Amnesty International, ``Human Dignity Denied: 
      Torture and Accountability in the War on Terror,'' October 
      27, 2004...................................................   822
    Report, Center for Civil Rights, ``The State of Civil 
      Liberties One Year Later,'' 2002...........................  1024
    Report, Nancy Chang & Alan Kabat, Center for Civil Rights, 
      ``Summary of Recent Court Rulings on Terrorism-Related 
      Matters having Civil Liberties Implications,'' March 8, 
      2004.......................................................  1044
    Report, Anjana Malhotra, ``Overlooking Innocence: 
      Refashioning the Material Witness Law to Indefinitely 
      Detain Muslims Without Charges''...........................  1084
    Report, American Civil Liberties Union, ``Conduct Unbecoming: 
      Pitfalls in the President's Military Commissions,'' March 
      2004.......................................................  1092
    Report, American Civil Liberties Union, ``America's 
      Disappeared: Seeking International Justice for Immigrants 
      Detained After September 11, January 2004..................  1109
    Report, American Civil Liberties Union, ``Seeking Truth From 
      Justice, PATRIOT Propaganda: The Justice Department's 
      Campaign to Mislead The Public About the USA PATRIOT Act,'' 
      July 2003..................................................  1136
    Article, New York Times, ``Just Shut It Down,'' May 27, 2005.  1149
    Article, USA Today, ``Biden: U.S. needs to close Cuba 
      prison,'' June 6, 2005.....................................  1151
    Letter to the Honorable Alberto R. Gonzales, Attorney General 
      of the United States.......................................  1153

 
                        REAUTHORIZATION OF THE 
                      USA PATRIOT ACT (CONTINUED)

                              ----------                              


                         FRIDAY, JUNE 10, 2005

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 8:30 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable F. 
James Sensenbrenner, Jr. (Chairman of the Committee) presiding.
    Chairman Sensenbrenner. The meeting will be in order, a 
quorum for the taking of testimony is present. This hearing has 
been called by the Democratic Members of the Committee pursuant 
to clause 2(j)(1) of Rule 10 of the Rules of the House of 
Representatives. They have chosen the witnesses. They have also 
chosen the topic of the hearing, and the Chair now recognizes 
the gentleman from Michigan, Mr. Conyers to make his opening 
statement.
    Mr. Conyers. Thank you, Mr. Chairman, this is a special 
hearing brought by the request of the Democratic side of the 
House of Representatives. I thank you for complying with it. 
There are few issues more important to this Committee, and I 
might add, the Congress, than the war against terror and the 
PATRIOT Act that accompanied it from a legislative perspective.
    This not only affects the rights and privacy of every 
American, but it impacts, the extent to which our Nation is 
able to hold itself out as a beacon of liberty as we advocate 
for democracy, both here and around the world.
    For many of us, this process of hearings is not merely 
about the extension of 16 expiring provisions that sunset in 
the PATRIOT Act, but it is about the manner in which our 
Government uses its legal authority to prosecute the war 
against terror, both domestically and abroad.
    And as we hear from our witnesses today, I think we will 
demonstrate that much of this authority has been abused.
    We learn from Amnesty International about the routine 
torture and degradation of detainees in American-run prisons 
that clearly and obviously violate American and international 
law.
    Both then White House counsel Gonzalez and the then 
Attorney General of the Department of Justice, all with others, 
conspired to create an end run around the international and 
United States laws that criminalize that sort of behavior. 
While the Justice Department has supposedly reversed these 
opinions, it still refuses to charge those in its jurisdiction.
    We expect that there will be testimony concerning the 
illegal detention and mistreatment of individuals at Guantanamo 
Bay. A Federal Court has found their detention and denial of 
legal process to be unconstitutional under the fifth amendment.
    And after the recent confirmation that jailers have, in 
fact, desecrated the Koran on more than one occasion, it is 
clearly time for the military to shut the Guantanamo facility 
down, and I join with those Members of Congress that have urged 
that that happen. We will also learn about the abuse of the 
immigration system to unjustifiably detain and harass men of 
Middle Eastern descent. The Department of Justice has held over 
1,000 people in the wake of 9/11 and the Inspector General has 
found the detentions to violate the law. But no one has been 
punished and nothing has been done to ensure that it doesn't 
happen again.
    Finally, we will hear about the failure of our 
Administration's racial profiling tactics employed in the war 
against terror. Not only are tactics like these immoral, they 
have been proven to be completely useless in the war on terror.
    For example, the Government's registration of 80,000 Middle 
Eastern men who did nothing, did nothing but create a 
deportation nightmare for families who had long been upstanding 
members of our communities. And not a single terrorist was 
found.
    Yesterday, the President announced with the usual fanfare 
that we need to not only reauthorize----
    Chairman Sensenbrenner. Gentleman's time has expired.
    The Chair recognizes himself for 5 minutes.
    As I said earlier when I called this hearing to order, this 
hearing was requested by the Democratic Minority. The 
Democratic Minority also stated what the scope of this hearing 
would be, which would be the reauthorization of the USA PATRIOT 
Act. I am disturbed that some of the testimony that has been 
presented in written form by the witnesses today are far 
outside the scope of the hearing which the Democratic Minority 
called and which they said in their letter.
    I am also disturbed that a number of the Members of this 
Committee who decided it was important to have this hearing and 
who sent me the letter, which I complied with, aren't here this 
morning. Members have changed their travel schedules in order 
to participate in the hearing which they called. But, 
apparently they decided it wasn't important enough to show up, 
even though they thought it was important enough to have this 
hearing. And I am going to read off their names because these 
are the people who decided the hearing was important enough to 
call, but not important enough to participate in. Rick Boucher 
of Virginia, Zoe Lofgren of California, Anthony Weiner of New 
York, Debbie Wasserman Schultz of Florida, Gerald Nadler of New 
York, Sheila Jackson Lee of Texas, Martin Meehan of 
Massachusetts, and Adam Schiff of California.
    They are AWOL. And apparently they have decided that this 
hearing is not important enough to participate in. Now----
    Mr. Conyers. Mr. Chairman.
    Chairman Sensenbrenner. I didn't interrupt you, Mr. 
Conyers.
    Mr. Conyers. I wanted to raise a point of order but I will 
be happy to wait.
    Chairman Sensenbrenner. Now, this Chair has bent over 
backwards to be fair to the Minority and everybody else and to 
provide plenty of due process on the question of reauthorizing 
the PATRIOT Act. We have had eleven hearings at the full and 
Subcommittee level here. The Minority has been offered to 
provide witnesses at all of the Subcommittee hearings. The two 
full Committee hearings included the Attorney General and the 
Deputy Attorney General. And this shows that I have worked in a 
bipartisan manner to give everybody an opportunity to express 
their concerns about the 16 sections of the PATRIOT Act that 
were subjected to the sunset.
    At each one of the hearings which were held at the 
Subcommittee level, the Minority had at least one witness, 
sometimes two, and there was an additional Subcommittee hearing 
that was held at the end of last month at the request of the 
Minority, where they were able to choose the scope of the 
topics that were discussed at this hearing.
    I also point out the American Civil Liberties Union has 
testified four times before at the Subcommittee level. I guess 
they weren't able to say what they planned to say, and that is 
why they're brought back here for the fifth time.
    Now, since commencing this latest series of oversight 
hearings on the PATRIOT Act, we have examined those provisions 
that are set to expire at the end of this year and the scope of 
the hearings has been broadened at the request of the Democrats 
to include provisions that will not sunset and some issues that 
are only tangentially related to the PATRIOT Act have also 
received formal Committee consideration. This was at the 
request of the Minority. And it is a request that I was happy 
to grant so that there would be full and complete discussion of 
this law.
    Now, the American people expect and deserve that Members of 
Congress will approach terrorism prevention in a thoughtful, 
factual and responsible manner. All too often, opponents of the 
PATRIOT Act have constructed unfounded and totally unrelated 
conspiracy theories, erected straw men that bear no relation to 
reality, engaged in irresponsible and totally unfounded 
hyperbole, or unjustly criticized or impugned the honorable law 
enforcement officials entrusted with protecting the security of 
the American people. These efforts that which often bear no 
relation to the reauthorization of the PATRIOT Act, coarsen 
public debate and undermine the responsible, substantive 
examination which must inform this Committee and Congress' 
consideration of this critical issue.
    As the Members of this Committee know, I have great respect 
for the Rules of the House, and believe they should be enforced 
fairly and uniformly. In keeping with the spirit of those 
rules, it is the Chair's intention to limit the scope of the 
hearing to the topic that was chosen by the Democratic Minority 
that called this hearing and chose the witnesses, which is the 
``Reauthorization of the USA PATRIOT Act.'' This should be a 
serious hearing on a serious subject and not a forum for 
assertions or complaints that concern matters unrelated to the 
PATRIOT Act.
    Members and witnesses are advised that questions and 
testimony not falling within the subject matter of the hearing 
chosen by the Democrats will not be included in the hearing 
record pursuant to House Rule 11, section (k)(8).
    We will now hear testimony from the witnesses. Gentlemen 
from Michigan.
    Mr. Conyers. Thank you very much. I would like to----
    Mr. Nadler. Mr. Chairman, point of order.
    Chairman Sensenbrenner. The gentleman from Michigan is 
recognized.
    Mr. Conyers. Well, I would like to strike the requisite 
number of words, Mr. Chairman, if I might at this time.
    Chairman Sensenbrenner. The gentleman is recognized for 5 
minutes.
    Mr. Conyers. I want to, again, thank you for complying with 
the rules. But, I mean, we can do this in a friendly tone or a 
hostile tone. I think that tells the story to everybody about 
what the real environment is like here. But first of all, we 
have never had the meeting that we were going to set. Number 
two, we have never, we have never determined what the limits 
will be on this hearing, because I never talked with you about 
it. Number four, it is very important that we understand that 
in this Committee and in the other body, we have gone way 
beyond the 16 sunsetting provisions as we all know and there 
are more coming every day.
    So to suggest to me and our membership that we are now 
going to talk about the 16 sunsetting provisions precisely 
misses the point of why we have asked for the hearing.
    Chairman Sensenbrenner. Will the gentleman yield.
    Mr. Conyers. Of course.
    Chairman Sensenbrenner. The Chair has complied with the 
rules. The Chair believes in complying with the rules. And the 
Chair expects all of the other Members to comply with the 
rules, which includes the Rules of the House of Representatives 
relative to pertinence and relevancy and the Chair will enforce 
the rules as they are written.
    Mr. Conyers. Well, I am happy to have yielded for that 
information. But section 1001 of the PATRIOT Act gave the 
Inspector General the responsibility of investigating 
``complaints alleging abuses of civil rights and civil 
liberties by employees and officials of the Department of 
Justice.''
    All of the topics today that are before us with these four 
witnesses fall under this category. It does not say only civil 
liberties abuses under the PATRIOT Act, but civil liberties in 
general in their totality. And all of the witnesses today I 
claim are experts in this area.
    So we didn't come here to have a special hearing to be told 
that we are only going to investigate 16 sunsetting provisions. 
That is what we have had, nine, 10, 11 hearings about. The 
question is about the issues of violations or abuses alleged of 
civil rights and civil liberties. So we didn't come here today 
to be muted by some well-intentioned recitations of the rules 
by the Chairman.
    And, I thank you. And I return the time.
    Chairman Sensenbrenner. The Chair strikes the last word and 
recognizes himself for a very brief 5 minutes. First of all, 
the Rules of the House and specifically, Rule 11 clause 2(j)(1) 
under which this hearing is called, requires that the subject 
matter of the hearings requested under this rule be confined to 
that measure or matter, which was the subject of the earlier 
hearing. Furthermore, the letter that I received from the 
Democratic Members of the Committee, dated June 7, exercising 
the provisions of this rule, requested at least one additional 
day of oversight hearings be authorized or be conducted, ``on 
the Reauthorization of the USA PATRIOT Act.''
    So both the rule and the letter requires that the 
testimony, in order to be pertinent and relevant, be on the 
subject of the reauthorization of the USA PATRIOT Act, and that 
is specifically the 16 sections of the USA PATRIOT Act, which 
were sunsetted in the law which was passed 3\1/2\ years ago. I 
would like to get to the----
    Mr. Nadler. Mr. Chairman, I have a personal privilege.
    Chairman Sensenbrenner. The gentleman will state his point.
    Mr. Nadler. Thank you, Mr. Chairman. I gather that my name 
was mentioned specifically by the Chair as not being present 
despite the fact that I signed the letter. I point out for the 
record that I walked in here at 8:27 a.m., put my jacket on the 
chair, put my Diet Coke over here, put my papers here and 
walked out to the staff room. The Chairman may not have noted 
my presence, but I was here prior to 8:30.
    Chairman Sensenbrenner. The Chair notes your presence now.
    Mr. Nadler. Now, Mr. Chairman may I strike the last word?
    Chairman Sensenbrenner. Well if the gentleman does not want 
to listen to the witnesses, the gentlemen may strike the last 
word.
    Mr. Nadler. I am very desirous of listening to the 
witnesses, and I will be very brief. I would simply observe--I 
would simply, first of all, second what the distinguished 
Ranking Minority Member said about the role of this hearing and 
about the breadth of it. And I would wonder why the Chairman 
seems so fearful of elucidating any information beyond what he 
thinks proper. Are we afraid of learning about this misconduct 
by agents of the executive branch that traduce civil liberties? 
If that happened, if it happened, we should know about it and 
we should discuss in this Committee what actions to take about 
it. We should not be fearful of knowledge and we should not be 
fearful of laying out to the American people such information, 
officially laying out to the American people information, the 
readers of much of which the readers of any newspaper in the 
United States or the world knows.
    Much conduct has occurred, I shouldn't say that. Much 
conduct has allegedly occurred which, if true, disgraces this 
country, spoils its good name and action should be taken about 
that if true. And we should learn about it. And I hope we are 
not fearful of learning about the truth or falsity of those 
statements that we have all read in the general press. Thank 
you. I yield back.
    Chairman Sensenbrenner. The Chairman will swear the 
witnesses in.
    Ms. Jackson Lee. Mr. Chairman, point of order.
    Chairman Sensenbrenner. Today we are joined by Carlina 
Tapia Ruano, who serves as first vice-president for the 
American Immigration Lawyers Association. Next is Dr. James J. 
Zogby, president of the Arab American Institute. Deborah 
Pearlstein is the director of U.S. Law and Security Program, at 
Human Rights First. And finally Chip Pitts is chair of the 
board of Amnesty International USA.
    I thank all of these witnesses for their attendance today 
and admonish the witnesses to confine their testimony pursuant 
to the Rules of the House and the scope of the letter that was 
sent to me by the Democrats calling this hearing. Would all of 
the witnesses please raise your right hand and stand and take 
the oath.
    [Witnesses sworn.]
    Chairman Sensenbrenner. Let the record show that all of the 
witnesses answered in the affirmative. Without objection, the 
witnesses prepared testimony, will be included in the record at 
the point they give their verbal testimony. We would ask that 
the witnesses confine their verbal testimony to 5 minutes. And, 
first up is Ms. Tapia Ruano.
    Ms. Jackson Lee. Mr. Chairman, point of order.
    Chairman Sensenbrenner. Ms. Tapia Ruano is testifying.

    TESTIMONY OF CARLINA TAPIA RUANO, FIRST VICE-PRESIDENT, 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Ms. Tapia Ruano. Good morning. My name is Carlina Tapia 
Ruano. I am an immigration attorney practicing in Chicago, 
Illinois. I am also the first vice-president of the American 
Immigration Lawyers Association, a National Bar Association 
that represents almost 9,000 immigration lawyers and professors 
of immigration law. I would like to thank Chairman 
Sensenbrenner, and also Representative Conyers for allowing me 
the opportunity to address you this morning. And also the 
fellow Committee Members, which includes Representative Jackson 
Lee from Texas, who is present this morning.
    I would like to talk about the PATRIOT Act and other 
initiatives related to the PATRIOT Act post 9/11. But let's 
begin with the PATRIOT Act. The American Immigration Lawyers 
Association is deeply troubled by some of the provisions found 
in this Act, such as section 411 of the act, which expands the 
grounds of removability and deportability for individuals that 
engage in conduct that we believe is constitutionally 
protected.
    In addition, section 412 creates a certification process 
whereby individuals can be designated suspect terrorists 
without ever being formally charged as terrorists, thereby 
depriving these individuals from the ability to defend 
themselves or to explain facts that may have led to their 
incorrect certification. We would ask that Congress address 
these provisions. We understand that in a democracy, especially 
such as ours, which is in need of security, we must have 
provisions which enhance security but we would also ask that 
these provisions not deprive individuals of their individual 
rights in the process of reaching the security. These 
provisions in the PATRIOT Act are very troubling, but also 
troubling are other administrative initiatives that took place 
post 9/11 which are irrevocably interconnected with the PATRIOT 
Act and what it is attempting to achieve.
    In my written testimony, I have provided an addendum that 
lists chronically some of these administrative initiatives.
    Today I would like to just address three in particular. 
First, the blanket closure of administration judge's 
proceedings; number two, the failure to file charges against 
individuals being detained, in effect, indefinitely; and third, 
the evisceration of the Board of Immigration Appeals, the only 
body that reviews decisions made by the Immigration Agency.
    We, the American Immigration Lawyers Association, believe 
that the Civil Liberties Restoration Act is a bill which should 
be strongly supported by Congress and it addresses fairly in a 
measured way these three concerns I have just addressed.
    Lets go back and talk about them in a little more detail. 
Closing of the immigration hearings. This took place as a 
result of the September 21, 2001, memo by the Department of 
Justice, which has become known as the Creppy memo, which the 
Department of Justice repeatedly denied, existed for months. As 
a result of this memo, hearings were ordered to be held in 
secret, not only the hearing preventing the family members, 
friends, and of course, the press, from attending, but the very 
fact that the hearing was taking place and its location and 
date and its subject matter was considered a matter of secrecy.
    We believe that hearings should be held open. We believe 
that in an open and democratic society such as ours, open 
hearings are a necessity. And closed hearings, such as these, 
are a normal tool of repressive regimes. Number 2, our concern 
with holding noncitizens in jail indefinitely. Again, the 
Department of Justice on September 20, 2001, just a day before 
the Creppy memo and a full month before the PATRIOT Act was 
enacted, authorized individuals, non-citizens, to be able to be 
held in custody for 48 hours, or an unspecified additional 
amount of time, if necessary. These are regulations that 
circumvent, that totally ignore congressional mandate in the 
very PATRIOT Act of putting a limit of 7 days to individuals 
who can be held in custody without charge.
    The Department of Justice has not had to depend on the 
Immigration Agency and the PATRIOT Act and its 7-day 
limitation. It simply ignores them and it relies on its own 
regulation which results in indefinite custody. The Department 
of Justice's own internal report, inspector general report 
dated April 2003, documented that most of these post 9/11 
detainees were held not only days, weeks, months in custody 
without being charged. Ultimately those individuals were 
charged with civil immigration violations. Not one was ever 
charged with any offense related to the 9/11 attacks.
    Chairman Sensenbrenner. Ms. Tapia Ruano, could you wrap it 
up? Your time is expired.
    Ms. Tapia Ruano. I would like to jump to the last concern, 
and that is the Board of Immigration Appeals. And I will 
conclude my comment with that. The Board of Immigration Appeals 
has, in fact, been reduced to a nonexistent body. As a result 
of alleged reforms, that body was dismantled, and in reducing 
the number of individuals that was allegedly going to reduce 
the backlog, all, in essence, it resulted in transferring its 
entire backlog to the Federal courts.
    I practice in the Seventh Circuit. A circuit, which is not 
known to be, in the past, friendly to overturning board 
decisions. Yet in the last 2 years, it has been, has become 
renowned for overturning board decisions as a result of the 
lack of review that exists due to the BIA reforms. We would 
urge the Committee to look to policies that provide security 
for our country, but not ignore or trample on individual 
rights. Thank you for allowing me to address.
    Chairman Sensenbrenner. Thank you.
    [The prepared statement of Ms. Tapia Ruano follows:]

               Prepared Statement of Carlina Tapia Ruano


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Sensenbrenner. Dr. Zogby.

            TESTIMONY OF JAMES J. ZOGBY, PRESIDENT, 
                    ARAB AMERICAN INSTITUTE

    Mr. Zogby. Thank you, Mr. Chairman. Thank you, Ranking 
Member Conyers and Members of the Committee. I appreciate the 
convening of this hearing and thank you for inviting me today.
    The horrific terrorist attacks of September 11th were a 
profound and painful tragedy for all Americans. None of us will 
ever forget the awful day when thousands of innocent lives were 
lost. The attacks were dual tragedy for my community. As 
Americans, it was our country that was attacked. Arab Americans 
died in the attacks. Arab Americans were also firefighters and 
police officers in New York and in Washington who aided in the 
rescue efforts. Some lost their lives doing so. Sadly, however, 
many in my community were torn away from their morning, because 
we became targets of hate and discrimination. Some assumed our 
collective guilt. Arab Americans and American Muslims and 
others perceived to be Arabs and Muslims were victims of 
hundreds of bias incidents.
    Thankfully the American people rallied to our defense. 
President Bush spoke forcefully against hate crimes. Both the 
Senate and House of Representatives unanimously passed 
resolutions condemning hate crimes. Federal, State and local 
law enforcement investigated and prosecuted. I received death 
threats. My family and I did. Two individuals have been 
prosecuted and convicted for those crimes. My community and I 
personally will always been grateful that our fellow Americans 
defended us at a critical time.
    Much has been done in the past 3\1/2\ years to combat the 
threat of terror. Among other significant accomplishments is we 
created the Department of Homeland Security. We have taken 
steps to enhance airport and border security and we have 
improved information sharing between intelligence and law 
enforcement. However, as someone who has spent my entire 
professional life working to bring Arab Americans into the 
mainstream of American politics and to build a bridge between 
my country and the Arab world, I am concerned about the 
direction of some of our efforts to combat the terrorist 
threats and the impact that some of these efforts have had on 
my community and my country.
    Unfortunately the Administration has devoted too many 
resources to some measures that threaten civil liberties while 
doing little to protect our community. I share the concerns of 
my colleagues with some provisions of the PATRIOT Act that give 
law enforcement broad authority to monitor the activities of 
innocent Americans with inadequate judicial oversight.
    These concerns, I might add, are shared by Americans across 
the political spectrum. I am supportive of reasonably reforms 
like those recommended in the Security and Freedom Enhancement, 
or SAFE Act. I am concerned as well about a series of high 
profile initiatives not authorized by the PATRIOT Act, which 
have explicitly targeted tens of thousands of innocent Arabs 
and Muslims and have resulted in the detention and deportation 
of thousands.
    Policies and statements that have conflated undocumented 
Arab and Muslim immigrants with terrorists has cast a cloud of 
suspicion over the entire community and contributed to 
additional discrimination. I therefore support passage of the 
Civil Liberties Restoration Act.
    Look, the measures I am talking about are 
counterproductive. They're counterproductive, and I want to 
talk about why. What policies am I talking about? For example, 
I am talking about the initial round up of 1,200. I am talking 
about the two so-called voluntary call-ins, and especially, I 
am talking about the national special registration program, 
NSEERS. That did not result in apprehending terrorists. They 
did not do anything but waste law enforcement resources. The 
FBI says that as well. They created fear and broke trust with 
many in the immigrant communities that law enforcement needs 
cooperation with in order to do its job, and they resulted in 
placing thousands in deportation, often for mere technical 
reasons because the INS simply had a backlog and couldn't get 
to their forms.
    In addition, they were placed based on the mistaken notion 
that you conflate immigration policy with any terrorism policy. 
All it did was cast a wide net and alienated communities that 
law enforcement needs to have cooperation with. They ran 
counter to the basic principles of policing. And took a toll on 
my community, a serious toll. They also took a particular toll 
on Americans abroad and I want to make that point as I close.
    As a result it has become more difficult for our allies to 
cooperate with us, and it has made America less popular abroad. 
Now that may not mean something to some people. But it means 
something to me and it ought to mean something to our country 
because we are engaged in a long-term conflict in that region.
    President Bush is right when he links the spread of 
democracy to the war on terrorism. But civil liberties abuses 
against Arabs and Muslims in America and the indefinite secret 
detention and highly coercive interrogation techniques used in 
Guantanamo Bay and elsewhere have undermined our ability to 
advocate credibly for democratic reform. In fact, some Arab 
governments now point to our policies to justify their 
policies. We have learned anti democratic practices and human 
rights abuses produce instability and create conditions that 
breed terrorism. Democratic reformers and human rights 
activists used to look to America as the city on the hill. We 
once set a high standard for the world. We have lowered the 
bar. The damage to our image, to our values, and all that we 
have sought to project and our ability to deal with the root 
causes of terror have been profound.
    Chairman Sensenbrenner. Thank you, Dr. Zogby.
    [The prepared statement of Mr. Zogby follows:]

                Prepared Statement of Dr. James J. Zogby

    Mr. Chairman, Ranking Member, Members of the Committee, thank you 
for convening this important hearing and for inviting me to be with you 
today.
    The horrific terrorist attacks of September 11 were a profound and 
painful tragedy for all Americans. None of us will ever forget that 
awful day when thousands of innocent lives were lost.
    The attacks were a dual tragedy for Arab Americans. We are 
Americans and it was our country that was attacked. Arab Americans died 
in the attacks. Arab Americans were also part of the rescue effort. 
Dozens of New York City Police and rescue workers who bravely toiled at 
Ground Zero were Arab Americans.
    Sadly, however, many Arab Americans were torn away from mourning 
with our fellow Americans because we became the targets of hate crimes 
and discrimination. Some assumed our collective guilt because the 
terrorists were Arabs. Arab Americans and Muslims and other perceived 
to be Arab and Muslim were the victims of hundreds of bias incidents. 
According to the Justice Department's Civil Rights Division, ``The 
incidents have consisted of telephone, internet, mail, and face-to-face 
threats; minor assaults as well as assaults with dangerous weapons and 
assaults resulting in serious injury and death; and vandalism, 
shootings, and bombings directed at homes, businesses, and places of 
worship.'' As a result of the post-9/11 backlash, in 2001, the FBI 
reported a 1600% increase in anti-Muslim hate crimes and an almost 500% 
increase in ethnic-based hate crimes against persons of Arab descent.
    Thankfully, the American people rallied to our defense. President 
Bush spoke out forcefully against hate crimes, as did countless others 
across the nation. Both the Senate and the House of Representatives 
unanimously passed resolutions condemning hate crimes against Arab 
Americans and Muslims. Federal, state and local law enforcement 
investigated and prosecuted hate crimes, and ordinary citizens defended 
and protected us, refusing to allow bigots to define America. My family 
and I received death threats and two individuals have been prosecuted 
by the FBI and convicted for these hate crimes. My community and I, 
personally, will always be grateful that our fellow Americans defended 
us at that crucial time.
    Much has been done in the past three and one-half years to combat 
the threat of terrorism. Among other significant accomplishments, we 
have created the Department of Homeland Security, taken steps to 
enhance airport and border security, and improved information sharing 
between intelligence and law enforcement.
    Arab Americans are proud to have played a crucial role in these 
efforts, serving on the front lines of the war on terrorism as police, 
firefighters, soldiers, FBI agents, and translators. The Arab American 
Institute has worked with federal, state and local law enforcement to 
assist efforts to protect the homeland. We helped to recruit Arab 
Americans with needed language skills and we have served as a bridge to 
connect law enforcement with our community. Unfortunately, our best 
efforts have been somewhat frustrated by the difficulties that many 
Arab Americans who possess the requisite language skills and a strong 
desire to serve our nation have experienced with obtaining security 
clearances.
    Working with the Washington Field Office of the FBI, the Arab 
American Institute helped to create the first Arab American Advisory 
Committee, which works to facilitate communication between the Arab-
American community and the FBI. I served as a member of that FBI 
Advisory Committee, which we still hope will be a model to be copied 
across the United States.
    As someone who has spent my entire professional life working to 
bring Arab Americans into the mainstream of American political life and 
to build a bridge between my country and the Arab world, I am very 
concerned about the direction of some of our efforts to combat the 
terrorist threat and the impact these initiatives have on our country 
and my community.
    Unfortunately, the administration has devoted too many resources to 
counterterrorism measures that threaten our civil liberties and do 
little to improve our security. I share the concerns of my colleagues 
with some provisions of the Patriot Act that give law enforcement broad 
authority to monitor the activities of innocent Americans with 
inadequate judicial oversight. These concerns, I might add, are shared 
by Americans across the political spectrum. I am supportive of 
reasonable reforms like those recommended in the Security and Freedom 
Enhancement, or SAFE, Act.
    I am as concerned, if not more, about a series of high-profile 
initiatives, not authorized by the Patriot Act, which have explicitly 
targeted tens of thousands of innocent Arabs and Muslims and have 
resulted in the detention and deportation of thousands. Policies and 
statements that conflate undocumented Arab and Muslim immigrants with 
terrorists cast a cloud of suspicion over the Arab American community 
that contributed to additional discrimination. I support passage of the 
Civil Liberties Restoration Act, which would help to end such 
counterproductive policies.
    In the immediate aftermath of 9/11, the Justice Department rounded 
up at least 1200 immigrants, the vast majority of whom were Arab or 
Muslim. The DOJ refused to release any information about the detainees, 
and charged that the detentions were related to the 9/11 investigation. 
At the time, the Arab American Institute and others in the Arab-
American community expressed concern about the broad dragnet that the 
Justice Department had cast in Arab immigrant communities. We fully 
supported the government's efforts to vigorously investigate the 9/11 
terrorist attacks, but we questioned the efficacy of this dragnet 
approach. Based on reports from family members of the detainees, we 
also were very concerned about the conditions in which the detainees 
were confined, and their ability to contact counsel and their families.
    Pursuant to Section 1001 of the Patriot Act, in 2002, the Justice 
Department's Inspector General issued a report which vindicated our 
concerns. The IG found that the Justice Department classified 762 of 
the detainees as ``September 11 detainees.'' The IG concluded that none 
of these detainees were charged with terrorist-related offenses, and 
that the decision to detain them was ``extremely attenuated'' from the 
9/11 investigation. The IG concluded that the Justice Department's 
designation of detainees of interest to the 9/11 investigation was 
``indiscriminate and haphazard.'' and did not adequately distinguish 
between terrorism suspects and other immigration detainees.
    The IG also found detainees were subjected to harsh conditions of 
confinement, including cells that were illuminated 24 hours per day, 
and confinement to their cells for all but one hour per day. 
Disturbingly, the IG also found, ``a pattern of physical and verbal 
abuse by some correctional officers at the MDC [Metropolitian Detention 
Center] against some September 11 detainees, particularly during the 
first months after the attacks.'' In testimony before this committee 
exactly one month ago, Inspector General Glenn Fine raised concerns 
that, with regard to abuse allegations at MDC, ``The BOP [Bureau of 
Prisons] initiated its own investigation based on the OIG's findings to 
determine whether discipline is warranted. Yet, more than a year later, 
the BOP review still is ongoing. We believe that this delay is too long 
and that appropriate discipline should have been imposed in a more 
timely fashion.''
    I'm not suggesting that the government should never use immigration 
charges to detain a suspected terrorist, but the broad brush of 
terrorism should not be applied to every out-of-status immigrant who 
happens to be Arab or Muslim. Moreover, if detained, they should most 
certainly not be subjected to abusive and degrading treatment. Our 
immigration system is fundamentally broken. Comprehensive immigration 
reform is required to address this problem. We should not confuse the 
problems with our immigration system with our efforts to combat 
terrorism. Detaining large numbers of undocumented Arab and Muslim 
immigrants will not aid our efforts to combat terrorism, and might 
actually harm them.
    Another example of conflating immigration enforcement against Arab 
and Muslims with counterterrorism was the National Security Entry-Exit 
Registration System (NSEERS) ``call-in'' program (also known as Special 
Registration), which required male visitors from 24 Arab and Muslim 
countries and North Korea, to register with local INS offices. By 
singling out a large group of mostly Arabs and Muslims, Special 
Registration involved a massive investment of law enforcement resources 
with negligible return. It also created fear of law enforcement in our 
immigrant communities, whose cooperation law enforcement needs. At the 
same time, these discriminatory practices validated and even fed the 
suspicion that some have of Arabs and Muslims.
    From the outset, NSEERS was plagued by implementation problems. Due 
to inadequate publicity and INS dissemination of inaccurate and 
mistranslated information, many individuals who were required to 
register did not do so. Many who were required to register in the call-
in program were technically out of status due to long INS backlogs in 
processing applications for permanent residency. Many such individuals 
have been placed in deportation proceedings.
    Across the country, many were detained in harsh conditions due to 
the government's inability to process registrants in a timely fashion. 
For example, in December 2002, the INS in Los Angeles detained hundreds 
of men and boys who report they were denied access to legal counsel and 
their families, held in handcuffs and leg shackles, and forced to sleep 
standing up due to overcrowding.
    In response to criticism that the ``call-in'' program discriminated 
against Arabs and Muslims, Justice Department officials originally said 
that it would be expanded to include visitors from all countries. When 
the program was transferred to the Department of Homeland Security, the 
administration announced that the program was being terminated. 
However, those who were already required to register, including male 
visitors from every Arab country, are still subject to the program's 
requirements and penalties for noncompliance, including deportation. 
``Call-in'' registration is over, but its consequences are still with 
us.
    The Department of Homeland Security reported that more than 80,000 
people registered in the call-in. Of these, more than 13,000 have been 
placed in deportation proceedings. If a goal of Special Registration 
was to track possible terrorists, deporting those who complied with the 
program undermined this aim, especially since it may reduce future 
compliance. The Special Registration ``call-in'' program did not result 
in the apprehension of any terrorists. This clearly raises questions 
about the efficacy of the program.
    In a similar vein, the Justice Department also launched the 
``Interview Project,'' to interview thousands of Arabs and Muslims, 
including U.S. citizens. The latest round of FBI interviews, the so-
called ``October Plan,'' coincided with an Immigration and Customs 
Enforcement (ICE) initiative which apparently used the NSEERS-compiled 
database to prioritize leads. Given the pre-election nature of this 
initiative, the Arab American Institute expressed concern, at the time, 
that these tactics may have had a chilling effect on the participation 
of some segments of the Arab American and American Muslim communities 
in the election. We have found that these interviews created fear and 
suspicion in the community, especially among recent immigrants, and 
damaged our efforts to build bridges between the community and law 
enforcement.
    Like other DOJ programs that cast a wide net, the interviews 
created a public impression that federal law enforcement viewed our 
entire recent immigrant community with suspicion, which, in some cases, 
fostered discrimination. For example, we received reports of instances 
where the FBI visited individuals at their workplace, and then these 
individuals were subsequently demoted or terminated by their employers.
    FBI officials with whom I have spoken also questioned the project's 
usefulness as a law enforcement and counter-terrorism program. They 
told me it involved a significant investment of manpower, produced 
little useful information, and damaged their community outreach 
efforts.
    The General Accounting Office reviewed the Interview Project and 
concluded:

        How and to what extent the interview project--including 
        investigative leads and increased presence of law enforcement 
        in communities--helped the government combat terrorism is hard 
        to measure . . . More than half of the law enforcement officers 
        that [the GAO] interviewed raised concerns about the quality of 
        the questions or the value of the responses.

    According to the GAO, ``Attorneys and advocates told us that 
interviewed aliens told them that they felt they were being singled out 
and investigated because of their ethnicity or religious beliefs.'' The 
GAO also concluded that many of those interviewed ``did not feel the 
interviews were truly voluntary,'' and feared ``repercussions'' if they 
declined to be interviewed.
    I am concerned about these and other government efforts that 
infringed upon civil liberties for several reasons. First, it is wrong 
to single out innocent people based on their ethnicity or religion. 
This runs contrary to the uniquely American ideal of equal protection 
under the law.
    By casting such a wide net, these efforts squandered precious law 
enforcement resources and alienated communities whose cooperation law 
enforcement needs. They ran counter to basic principles of community 
policing, which rejects the use of racial and ethnic profiles and 
focuses on building trust and respect by working cooperatively with 
community members.
    According to polls conducted by the Arab American Institute and 
Zogby International, the Justice Department's efforts took a toll in 
the Arab American community. Immediately after 9/11 Arab Americans were 
heartened by President Bush's strong display of support for the 
community. In October 2001, 90% said that they were reassured by the 
President's support, while only six percent were not reassured. By May 
2002, those who felt reassured dropped to 54% as opposed to 35% who 
were not. In a July 2003 poll, the ratio dropped even further, with 
only 49% now saying that they feel assured by Bush's support for the 
community while 38% say that they are not assured. By 2004 this number 
dropped to the 20% range. In addition, we found that thirty percent of 
Arab Americans reported having experienced some form of discrimination, 
and 60% said they were concerned about the long-term impact of 
discrimination against Arab Americans.
    Civil liberties abuses against Arabs and Muslims have been well-
publicized in the Arab world, and there is a growing perception that 
Arab immigrants and visitors are not welcome in the United States. As a 
result, America is less popular, and it is more politically difficult 
for our Arab allies to cooperate with our counter-terrorism efforts.
    According to polls conducted by the Arab American Institute and 
Zogby International, Arab public opinion attitudes toward the United 
States had dropped to dangerously low levels even before the U.S.-led 
invasion of Iraq. We found that Arabs had strong favorable attitudes 
toward American values, and also had largely favorable attitudes toward 
the American people. However, they had extremely negative attitudes 
toward U.S. policy, which shaped their views of America. To be sure, 
U.S. policy toward the Israeli-Palestinian conflict and Iraq 
contributed to these attitudes, but perceptions of civil liberties 
abuses against Arab and Muslims Americans are also a contributing 
factor. In fact, in a 2004 poll of Arab attitude toward the US, we 
found that our treatment of Arab and Muslim immigrants had eclipsed 
Palestine and Iraq as the number one reason for negative attitudes 
toward Americans in some Arab countries.
    The countries polled included some of the United States' strongest 
allies in the Middle East: Egypt, Jordan, Morocco, Saudi Arabia and the 
United Arab Emirates. In an earlier AAI/ZI poll, done in March of 2002, 
we found that U.S. favorable ratings were already quite low. The most 
significant drops in U.S. ratings occurred in Morocco and Jordan. In 
2002, for example, 34% of Jordanians had a positive view of the United 
States as compared with 61% who had a negative view. By 2004, only 10% 
of Jordanians held a positive view of the United States, while 81% see 
the country in a negative light. Similarly in Morocco the favorable/
unfavorable rating towards the United States in 2002 was 38% to 61% 
percent. Two years later, it was 9% favorable and 88% unfavorable.
    The U.S. favorable/unfavorable rating was already quite low in 
Egypt, Saudi Arabia, and the UAE. It has remained low.
    Buttressing these poll results are my experiences in the Arab 
world, where I travel frequently. In conversations with opinion leaders 
across the region, the concern they raise most frequently is American 
civil liberties abuses against Arabs and Muslims.
    Due to a variety of factors, including fear of discrimination, many 
fewer Arabs come to the U.S. for medical treatment, tourism, study, or 
business. In the past, Arab visitors to the U.S. have had a chance to 
observe first-hand the unique nature of American democracy and freedom 
and have returned to the Arab world as ambassadors for our values.
    President Bush has rightly linked the spread of democracy to the 
war on terrorism. Unfortunately, civil liberties abuses against Arabs 
and Muslims in the U.S. and the indefinite secret detention and highly 
coercive interrogation of Arab and Muslim detainees in Guantanamo Bay 
and other locations has undermined our openness and harmed our ability 
to advocate credibly for democratic reforms in the Middle East. In 
fact, some Arab governments now point to American practices to justify 
their own human rights abuses. As President Bush suggested, and as we 
have learned so painfully, anti-democratic practices and human rights 
abuses promote instability and create the conditions that breed 
terrorism. Democratic reformers and human rights activists used to look 
to the U.S. as an exemplar, the city on a hill. Now they are dismissed 
by their countrymen when they point to the American experience.
    Once we set a high standard for the world, now we have lowered the 
bar. The damage to our image, to the values we have sought to project, 
and to our ability to deal more effectively with root causes of terror 
have been profound.

    Chairman Sensenbrenner. Ms. Pearlstein.

          TESTIMONY OF DEBORAH PEARLSTEIN, DIRECTOR, 
                 U.S. LAW AND SECURITY PROGRAM

    Ms. Pearlstein. Thank you. Thank you, Mr. Chairman, Mr. 
Conyers, for inviting Human Rights First to share our views 
today on the reauthorization of the PATRIOT Act.
    My name is Deborah Pearlstein, and I direct the U.S. Law 
and Security Program at Human Rights First, which is formerly 
the Lawyers Committee For Human Rights.
    We are grateful for the opportunity to speak and we welcome 
your review today of the PATRIOT Act as part of a much needed 
move to engage in more aggressive congressional oversight of 
U.S. counterterrorism laws and policies. I would like to focus 
on these brief remarks on the profound need for greater 
oversight in this area, and particularly the critical 
importance of building on the scope of section 804 of the 
PATRIOT Act, which recognizes the need for enforcing U.S. laws 
and U.S. operations overseas. This idea of oversight and 
accountability is one that the PATRIOT Act itself squarely 
incorporates in a provision we urge this Committee to champion 
anew. Section 804 of the act amends the definition of special 
maritime and territorial jurisdiction of the United States to 
include ``offenses committed by or against a national of the 
United States.''
    On diplomatic, consular or military premises overseas, the 
act thus now makes clear that the Department of Justice now has 
jurisdiction to prosecute crimes by or against U.S. persons 
committed on these sites as part of the special maritime and 
territorial jurisdiction.
    In light of the sustained public focus on the ongoing 
detention of foreign nationals throughout the world and the 
substantial hit our national security interests have taken as a 
result of these practices, using the power of the PATRIOT Act 
in this respect has never been more important. We believe that 
the way to build on this provision of the act is by 
establishing a bipartisan independent commission to look 
comprehensively at U.S. detention and interrogation operations 
in the war on terror. We believe such a commission is not only 
critical to restoring America's commitment to protecting basic 
human rights, but also is an increasingly urgent requirement to 
prevent U.S. national security.
    Let me explain briefly why I believe this is the case. 
Since September 11, 2001 the scope of U.S. detention and 
intelligence collection operations worldwide has grown 
dramatically. Far from diminishing in importance is U.S. 
missions in Afghanistan and Iraq have matured, detention 
operations are picking up permanence and pace with the numbers 
of individuals in U.S. custody worldwide close to 12,000 today. 
Despite the sustained nature of these operations, a startling 
number of questions about the U.S. global detention system 
remain shrouded in secrecy. What is the legal basis of 
detaining those held? And what are the plans for their future? 
Does the International Red Cross now have access to all held in 
U.S. custody or do we continue to hold ghost detainees beyond 
the reach of humanitarian aid or law? Critically, what methods 
of interrogation and conditions of detention do U.S. held 
detainees face and are we now in compliance worldwide with 
basic constitutional and treaty prohibitions on torture as well 
as cruel, inhuman and degrading treatment of any kind.
    One need not be an expert in U.S. international and human 
rights law to recognize the urgency of these questions. 
According to the Pentagon's own figures, more than 100 people 
have died in U.S. custody since 2002. This includes 28 cases 
classified already by the Pentagon as homicides. At least half 
of those were people who were literally tortured to death.
    To be clear, this is not a problem about a handful of 
actors from Abu Ghraib. Only one of the criminal homicides 
identified by the Department of Defense occurred at Abu Ghraib. 
The rest occurred at others of the two dozen-some detention 
facilities the United States maintains worldwide, well beyond 
the few young soldiers facing courts martial from Abu Ghraib. 
137 U.S. soldiers so far have been punished for acts of torture 
or abuse, perhaps worse, the problem appears to be ongoing. At 
least 45 detainees have died in U.S. custody since Secretary 
Rumsfeld was informed of the torture at Abu Ghraib on January 
16, 2004.
    This is not a problem, first and foremost, about our brave 
troops. This is about command responsibility and congressional 
oversight. Our concern for the scope and nature of this problem 
is Americans and human rights lawyers have been matched and 
indeed exceeded by our friends and colleagues in the military 
and intelligence communities who believe current policies have 
been devastating both to the safety of our troops and the 
security interests of our nations. As a distinguished coalition 
of retired admirals and generals wrote last fall, 
``understanding what is going wrong and what can be done to 
avoid systemic failure in the future is essential to ensure 
that the effectiveness of the U.S. military and intelligence 
operation is not compromised by an atmosphere of 
permissiveness, ambiguity or confusion.''
    Even more starkly as one U.S. Army interrogator returning 
from Afghanistan noted, ``The more a prisoner hates America, 
the harder he will be to break. The more a population hates 
America, the less likely its citizens will be to lead us to a 
suspect.''
    Our detention practices have inflamed our enemies and 
alienated potential allies and they continue to run contrary to 
the security imperatives this body seeks to protect.
    Finally, there can be no question that the investigations 
to date have been inadequate. As Human Rights first detailed at 
length in our recent report, Getting to Ground Truth, 
Government investigations so far have suffered from a lack of 
independence, failures to investigate relevant agencies and 
personnel, cumulative reporting, increasing the risk that error 
and omissions are perpetuating in successive reports, 
contradictory conclusions, questionable use of security 
classification withheld information, failures to address senior 
military and civilian responsibility, and an absence of any 
comprehensive game plan for corrective action. Human rights for 
the past 4 years----
    Chairman Sensenbrenner. The gentlewoman's time has expired.
    Ms. Pearlstein. Can I conclude briefly?
    Chairman Sensenbrenner. Briefly.
    Ms. Pearlstein. Our past 4 years of active engagement on 
these issues has persuaded us a 9/11-style commission, 
independent, bipartisan and of unassailable credibility is 
critical to understand finally what has gone wrong in the U S 
detention interrogation operations, and to chart a way forward 
to accountability and correction. Today's hearing can be a 
valuable first step in taking seriously the cause of liberty 
and safety. And we thank you for your consideration.
    Chairman Sensenbrenner. Thank you.
    [The prepared statement of Ms. Pearlstein follows:]

                Prepared Statement of Deborah Pearlstein

    Thank you for inviting Human Rights First to share our views on the 
reauthorization of the PATRIOT Act. My name is Deborah Pearlstein. I am 
the Director of the US Law and Security Program at Human Rights First. 
We greatly appreciate the opportunity to speak, and welcome your review 
today of the Patriot Act in the context of a much needed Congressional 
assessment of all U.S. counter-terrorism laws and policies. In my 
testimony today I would like to offer a few basic principles we hope 
the Committee will consider as it exercises its critical responsibility 
for reviewing and overseeing the authority given the Executive Branch 
under the PATRIOT Act.
    For nearly 30 years, Human Rights First, formerly the Lawyers 
Committee for Human Rights, has worked in the United States and abroad 
to advance the values we believe all Americans share: a respect for 
justice and human dignity, and a commitment to the rule of law. One 
role we have worked hard to play is in providing dispassionate legal 
analysis and pragmatic policy advice to help craft solutions to the 
most pressing human rights problems facing the world today.
    It was with these values--and this approach to our work--that Human 
Rights First responded to the attacks of September 11 by creating a new 
U.S. Law and Security Program to engage on the human rights questions 
presented by U.S. national security policies. As the first director of 
that program, and a constitutional lawyer by training, I approach this 
work starting from three guiding principles.
    First, Al Qaeda poses a very serious security threat to the 
American people, and the U.S. Government has the right and duty to 
protect Americans from attack. We thus welcome efforts to improve 
coordination among federal, state and local agencies, and between law 
enforcement and intelligence officials. Equally welcome are greater 
efforts to protect the nation's infrastructure supporting energy, 
transportation, food and water; efforts to strengthen the preparedness 
of our domestic front-line defenders, police, firefighters and 
emergency medical teams, as well as those working in public health. 
That recognition has meant for us, among other things, reaching out to 
members of the U.S. military and intelligence communities to understand 
the nature of the security challenge we face, and to discuss rights-
respecting solutions that are equal to the challenge. We are proud to 
say that we have found many allies in these communities, and many areas 
of common cause.
    The second principle is that the governments that are most 
effective in safeguarding human security are those that operate 
strictly under the rule of law: that is, under a system in which people 
are governed by public laws that are set in advance, applied equally in 
all cases, and are binding and enforceable on both individuals and on 
the government that serves them. For this reason, we have worked hard 
to engage all three branches of government in fulfilling their 
responsibilities to sustain our rule-of-law system. We have 
participated as monitors at Guantanamo Bay as the President's military 
commission trials began; advocated in the courts to ensure in all cases 
independent judicial review; and urged the vigorous exercise of 
congressional oversight in all aspects of U.S. counterterrorism 
activities--most recently in leading bipartisan calls for Congress to 
appoint an independent commission to study the challenges of detention 
and interrogation in Afghanistan , Iraq, at Guantanamo and elsewhere. 
In this spirit, we strongly welcome this hearing today.
    Finally, we believe that the relationship between security and 
liberty is not zero-sum. That taking rights away does not necessarily 
improve security. And likewise, that some of the most effective 
security-enhancing measures we have seen since September 11--including 
efforts to improve tracking of cargo containers coming into the United 
States, and a renewed commitment to disease surveillance to safeguard 
against biological attack--are broadly neutral with respect to rights.
    It is because we believe that the security costs and benefits that 
flow from laws cannot be gleaned simply from what rights they burden 
that we believe the PATRIOT Act discussion remains one in which more 
questions than answers remain. Homeland Security Department Secretary 
Chertoff emphasized recently the importance of risk-management 
principles in designing an effective approach to minimizing the threat 
of terrorism, urging that in ``weigh[ing] the risks of a particular 
action, you conduct a cost-benefit analysis, and you factor these into 
your considerations.'' Four years in to the PATRIOT Act's 
implementation, we still lack a full, public accounting from the 
Department of Justice of the Act's use and its effects, for good and 
ill. Without this, we all remain poorly equipped to measure how much 
liberty or security we should cede.
    Underlying all of these principles is an idea the PATRIOT Act 
itself incorporates, in a provision we urge this Committee to champion 
anew--the idea of accountability. Section 804 of the Act in particular 
amends the definition of ``special maritime and territorial 
jurisdiction of the United States'' to include ``offenses committed by 
or against a national of the United States'' on diplomatic, consular or 
military premises overseas. The Act thus now makes clear that the 
Department of Justice has jurisdiction to prosecute crimes by or 
against U.S. persons committed on these sites as part of this ``special 
maritime and territorial jurisdiction.'' In light the sustained public 
focus on the ongoing detention of foreign nationals throughout the 
world, and the substantial hit our national security interests have 
taken as a result of these practices, using the power of the PATRIOT 
Act in this respect has never been more important.
    This Committee should oversee, enhance, and enforce this aspect of 
the PATRIOT Act--and the Justice Department's pivotal role in carrying 
it out. With the powers that this Act and others like it provide comes 
the strict responsibility to enforce the laws as they exist. In 
including Section 804 in the Act originally, we believe Congress meant 
to signal its commitment to coupling new grants of power with equal 
measures of oversight and enforcement. Now is the time for Congress to 
strengthen its oversight of offenses committed in the special maritime 
and territorial jurisdiction of the United States. And where the 
Department of Justice falls short, this body must bear the weight.
    Thank you for considering our views. We welcome your active 
engagement and the opportunity to continue to work with you on these 
vitally important issues.

    Chairman Sensenbrenner. Mr. Pitts.

         TESTIMONY OF CHIP PITTS, CHAIR OF THE BOARD, 
                   AMNESTY INTERNATIONAL USA

    Mr. Pitts. Thank you, distinguished Chairman, Ranking 
Member and Committee Members. Amnesty international's millions 
of activists in the U.S. and in over 100 countries around the 
world call human rights violations as we see them, based on 
rigorous research and regardless of the government or armed 
group committing them.
    Our touchstone is international law, including the 
universal declaration of human rights and the Geneva 
conventions, international instruments that the U.S. helped 
create. Amnesty vigorously condemns terrorists attacks like the 
horror of 9/11. We also understand history's clear lesson that 
human rights and the rule of law are indispensable 
prerequisites to true security for all. The PATRIOT Act, along 
with other post 9/11 laws, executive orders and policies 
seriously undermine human rights, weaken the global human 
rights framework and contribute both to human rights violations 
and, we believe, increased terror attacks. The mere existence 
of such measures has a chilling effect on fundamental freedoms, 
including speech and association, religion and belief, privacy, 
due process and equal protection.
    These are U.S. constitutional rights. But they're also 
binding international law treaty obligations. Encouraging the 
presumption of guilt rather than innocence, the PATRIOT Act 
sweeps innocent people within its ambit. It has inspired a 
cascade of similar laws around the world that weaken the rule 
of law, so essential to protecting human rights, including the 
right to be protected from terrorist attacks.
    With active U.S. encouragement almost every country around 
the world now has new anti-terror legislation, often modeled on 
the USA PATRIOT Act. Abusive governments globally, including 
China, Cuba, Zimbabwe, Colombia, Egypt, Uzbekistan, now cite 
U.S. actions to justify their own violations.
    We urge Congress to correct the deficiencies of the PATRIOT 
Act by three main measures, restoring checks and balances, 
restoring individualized fact-based suspicion, and thirdly, 
independent judicial review. Amnesty is especially concerned 
about section 802's broad definition of domestic terrorism, 
which has already discouraged free association and peaceful 
dissent. Section 412's allowing indefinite detention merely 
upon the Attorney General's say-so, violating U.S. and 
international rights to due process and nondiscrimination, 
reduced or eliminated judicial review in sections like 215 and 
505 which allow secret Government invasions of free thought, 
belief, religion, expression, press and privacy, and section 
213's overbroad sneak-and-peak home search provision also 
infringing privacy rights.
    Congress should enforce the Patriot Act's current sunset 
provisions or modify them significantly to protect individual 
rights and eliminate, modify or sunset the other provisions 
infringing individual rights. Congressional oversight should 
also evaluate Justice Department compliance with section 1001 
to ensure that abuses under the PATRIOT Act are fully 
investigated, especially those against Muslim, Arab and 
immigrant communities. Amnesty's racial profiling report last 
year found that such practices increased dramatically after 9/
11.
    We agree with Human Rights First and others that section 
804, which expands U.S. jurisdiction to include offenses 
committed by or against a national of the U.S. provides grounds 
for Congress to support appointment of a special counsel and an 
independent commission to comprehensively investigate the 
torture and ill treatment of detainees in U.S. custody.
    Over 500 people have been detained without charge at 
Guantanamo for over 3 years, and tens of thousands more in 
Iraq, Afghanistan and secret detention centers around the 
world. The rest of the world knows of this. And, they also know 
about the more than 100 deaths in U.S. custody, including the, 
at least, 28 homicides referred to. And the world views all 
this as an egregious abuse of power and a denial of the most 
fundamental rights of human existence.
    In Amnesty's 2005 annual report, we noted that U.S. 
tolerance for torture and ill treatment sends a tragic and 
counterproductive message to the world that human rights may be 
sacrificed in the name of security.
    Right now the U.S. domestic and foreign approaches are both 
preemptive, secretive, unchecked, subjective, counter to the 
presumption of innocence, unilateral, unreliable and abusive. 
Instead of being fair, legal, objective, fact-based, tested, 
cooperative and most importantly perhaps effective.
    Congress must reiterate that human rights are an integral 
part of true security. Policies that facilitate torture at 
Guantanamo and elsewhere make us less safe and true security 
cannot be achieved without respect for human rights and the 
rule of law.
    Thank you, Mr. Chairman.
    Chairman Sensenbrenner. Thank you, Mr. Pitts.
    [The prepared statement of Mr. Pitts follows:]

                    Prepared Statement of Chip Pitts

    Mr. Chairman, Distinguished Ranking Member, Members of the 
Committee, on behalf of Amnesty International USA \1\ thank you for the 
opportunity to be here today.
---------------------------------------------------------------------------
    \1\ Amnesty International is a grassroots organization with 1.8 
million members worldwide working to promote and defend human rights. 
For information, contact Ms. Alex Arriaga or Ms. Jumana Musa at 202-
544-0200, or visit www.aiusa.org.
---------------------------------------------------------------------------
    Amnesty International's 1.8 million members in over 100 countries--
including hundreds of thousands in the United States--are committed to 
exposing human rights violations committed by governments and armed 
groups around the world. Amnesty International is guided by 
international human rights and humanitarian law, and the standards set 
forth in the Universal Declaration of Human Rights and the Geneva 
Conventions, international instruments the United States championed and 
helped create half a century ago. The organization was founded to 
defend the right of individuals incarcerated for the peaceful 
expression of their views and to oppose the use of torture on any 
person. Its members have helped free over 40,000 political prisoners, 
many of whom are survivors of torture, and continues to work for the 
eradication of torture worldwide and the implementation of relevant 
international instruments that establish universal human rights 
standards.
    The USA Patriot Act was adopted in the weeks after the horrific 
attack on September 11, 2001. Amnesty International vigorously 
condemned the 9/11 attack as a brutal assault and a crime against 
humanity, and recognized the duty of every nation to protect its 
citizens and to seek fair justice. Amnesty International vigorously 
condemns terrorist attacks, and upholds the international human right 
to be safe from terrorism. The organization also maintains that the 
lesson of history is that preserving human rights and the rule of law 
is the indispensable and preferred route to true security.
    We are concerned that the USA Patriot Act, combined with other, 
related post-9/11 legislation, executive orders, and policies, 
undermines the human rights of Americans and non-citizens in this 
country, weakens the framework for promoting human rights 
internationally, and contributes to a climate conducive to human rights 
violations as well as increased incidents of terror.
    Amnesty International believes that the USA Patriot Act, as it 
exists today, is out of step with the legal requirement and critical 
need to preserve core principles, constitutional freedoms, and 
adherence to human rights even in times of crisis. The Patriot Act and 
related measures threaten rights otherwise protected in the U.S. 
Constitution and international instruments, such as the Universal 
Declaration of Human Rights, the International Covenant on Civil and 
Political Rights, the Convention against Torture, and the Convention on 
the Elimination of All Forms of Racial Discrimination.
    Provisions of the Patriot Act have had a chilling affect on freedom 
of speech and association, freedom of religion and belief, and privacy. 
The law jeopardizes due process and fair trial procedures by 
encouraging a presumption of guilt until proven innocent, instead of 
the normal presumption of innocence. The Patriot Act is of concern both 
in itself, and also because it has inspired a significant cascade of 
similar legislation around the world that weakens the rule of law which 
is so essential to the protection of human rights, including the right 
to be defended against terrorist attacks.
    The overly braod and heavy-handed approach of the Patriot Act is 
also reflected in other US laws, executive orders, policies and tactics 
that have led to excesses in the `war on terror' and have allowed 
abusive governments around the world to cite the United States as an 
example to justify their own violations. The policies of the world's 
superpower disproportionately influence other nations. Governments in 
countries as diverse as Britain, China, Colombia, Cuba, India, Jordan, 
and Uzbekistan have stepped up efforts to enact or expand similarly 
restrictive policies. According to U.S. officials, at least 180 
countries--almost every country in the world--have followed suit with 
legislation of their own since the USA Patriot Act was passed.
    Amnesty International urges Congress to correct the deficiencies of 
the Patriot Act by restoring checks and balances, fact-based 
individualized suspicion, and independent judicial review over 
government implementation of the Patriot Act. These corrections are 
necessary both to protect fundamental civil and human rights and to 
more thoughtfully enhance the law's contribution, if any, to curbing 
terrorism. Provisions of special concern to Amnesty International 
include the following:

        <bullet>  The USA Patriot Act creates a broad definition of 
        ``domestic terrorism'' that discourages the right to free 
        expression and association. Section 802 of the law defines 
        ``domestic terrorism'' as acts committed in the United States 
        ``dangerous to human life that are a violation of the criminal 
        laws'' if the US government determines that they ``appear to be 
        intended'' to ``influence the policy of a government by 
        intimidation or coercion,'' or ``to intimidate or coerce a 
        civilian population.'' Already, the Patriot Act has emboldened 
        some school administrators to discourage participation in free 
        speech activities, and has discouraged some peaceful dissenters 
        from protesting.

        <bullet>  The USA Patriot Act allows non-citizens to be 
        detained without charge and held indefinitely once charged, if 
        the US Attorney General certifies that there are ``reasonable 
        grounds'' to believe this person is engaged in conduct that 
        threatens national security. This runs counter to US and 
        international rights to due process and to non-discrimination.

        <bullet>  And the USA Patriot Act infringes on the right to 
        privacy and removes many types of judicial review over law 
        enforcement and intelligence activities, which may in turn 
        facilitate the commission of abuses of other human rights. For 
        example, Section 215 of the USA Patriot Act permits the 
        government to scrutinize peoples' reading habits through 
        monitoring of public library and bookstore records and requires 
        bookstores and libraries to disclose, in secrecy and under 
        threat of criminal prosecution, personal records of reading and 
        websurfing habits. This harms freedom of thought, belief, 
        religion, expression, press, as well as privacy. Librarians 
        have stated publicly that they are torn between abiding by the 
        law and violating their patron's right to privacy. The Patriot 
        Act also allows for ``sneak and peek'' search warrants to 
        conduct physical searches of property and computer records 
        without providing notification, wiretapping and monitoring of 
        e-mail, access to financial and educational records, among 
        other areas. The right to be free from arbitrary interference 
        with individual privacy is protected in both the US 
        Constitution and the International Covenant on Civil and 
        Political Rights, to which the United States is a party.

    Amnesty International urges the U.S. Congress to enforce the sunset 
provisions currently in the USA Patriot Act, or modify them 
significantly to protect individual rights, and eliminate, modify, or 
place sunsets on other provisions that infringe on individual rights of 
all Americans and non-citizens.
    We urge the U.S. Congress to exercise its important oversight role 
to examine implementation of the USA Patriot Act. In particular, 
Amnesty International is concerned by abuses against Muslim and Arab 
communities in the United States, and the generally hostile climate 
against immigrants. Amnesty International last year released a report 
on racial profiling in the United States and found that racial 
profiling practices by law enforcement have expanded in the 
government's ``war on terror'' and threaten to affect an estimated 87 
million individuals in the United States. The report, ``Threat and 
Humiliation: Racial Profiling, Domestic Security, and Human Rights in 
the United States'' finds that law enforcement's use of race, religion, 
country of origin, or ethnic and religious appearances as a proxy for 
criminal suspicion undermines national security. Racial profiling 
blinds law enforcement to real criminal threats and creates a hole in 
the national security net.
    Congress should evaluate the Department of Justice compliance with 
Section 1001 of the law with regard to complaints alleging abuses of 
civil rights and civil liberties by employees and officials of the 
Department of Justice. Congress must ensure that department policies 
prevent racial profiling and abuse. This is a matter of upholding civil 
and human rights, applying the rule of law, and enhancing national 
security by protecting the human rights and freedoms of all.
    Amnesty International also urges the U.S. Congress to exercise its 
important oversight role in examining the performance of the U.S. 
Government in implementing Section 804 of the Patriot Act. Section 804 
amended the definition of ``special maritime and territorial 
jurisdiction of the United States'' to include ``offenses committed by 
or against a national of the United States'' on diplomatic, consular or 
military premises. The U.S. government has failed to date to support a 
truly independent and comprehensive investigation into abuses against 
detainees in U.S. custody.
    That is why Amnesty International continues to call on the U.S. 
Congress to establish a truly independent commission , which has not 
happened yet, and to urge the Attorney General to appoint a Special 
Counsel to investigate reports of torture and ill-treatment of 
detainees held in U.S. custody in Guantanamo, Bagram, Abu Ghraib, and 
detention centers--including secret detention centers--around the 
world. For over three years, over 500 individuals have been held in 
indefinite detention in Guantanamo in conditions that spurred the 
International Committee of the Red Cross to break its tradition of 
silence and protest publicly U.S. mistreatment of detainees. General 
Richard Myers has indicated that at least 68,000 individuals have been 
detained around the world in the so-called ``war on terror''. We have 
all seen the photographs taken at Abu Ghraib, but we may not know that 
there have been over 100 deaths in custody, of which at least 27 have 
been ruled ``homicides''.
    Amnesty International recently released its 2005 Annual Report 
which summarized human rights conditions in 149 countries and 
territories. Upon releasing the report, Amnesty International noted 
that the images of detainees tortured in Abu Ghraib shocked the world. 
As evidence of torture and ill-treatment of detainees in US custody in 
other countries continues to emerge, the United States is sending an 
unequivocal and severely damaging message to the world that human 
rights may be sacrificed ostensibly in the name of security. Congress 
must act to reverse this message, ensure an independent investigation 
into abuses, and uphold the rule of law and international standards of 
human rights for all. We are not safer when we abuse others. But we are 
safer when we promote conditions that allow every person to exercise 
their human rights and freedoms.
    Thank you.

    Chairman Sensenbrenner. The Chair will recognize Members 
under the 5-minute rule. The gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. I first begin by 
praising the four witnesses who, on such short notice were able 
to pull these excellent statements together. I want to put out 
these questions because, as you know, 5 minutes is a very short 
amount of time. And you may respond to them as you feel 
inclined. What changes do you think need to be made in the 
PATRIOT Act to prevent legal and innocent people from being 
unjustly punished or persecuted? That is the first question. 
The second, the Inspector General found that the detention of 
aliens after 9/11 ``indiscriminate and haphazard.'' Do you 
believe that the Department of Justice's approach in this 
matter has become any better? Do you believe the Administration 
has adequately investigated allegations of torture, in Iraq, 
Afghanistan, and Guantanamo?
    And, is there anyone here that does not support an 
independent commission or select committee to investigate? And 
is any one of you experts here aware of a single terrorist 
arrest or conviction that came from the registration of or 
interview of over 10,000 men of Middle Eastern descent? Please, 
those of you who are witnesses may.
    Chairman Sensenbrenner. Who wants to be first?
    Mr. Conyers. You can begin.
    Chairman Sensenbrenner. Ladies first.
    Ms. Tapia Ruano. Thank you, Mr. Pitts, and I would like to 
address some of these questions, not all of them, since I 
understand it is as we feel willing and with regards to the 
detention of illegals as it relates to non-citizens that, at 
this time, Department of Homeland Security is, you know, is a 
newly-created department and has been very distracted with 
reorganizing itself and that has definitely contributed to its 
ability to detain less people. I do think less people at this 
time are being detained as a result of post 9/11 
investigations. But I also think it is important to note that 
the Department has recognized the failures of its prior 
policies and of its prior initiatives.
    And, as any good agency, is attempting not to repeat its 
failures. I would also say that, of course, I would support an 
independent commission to investigate this. And no, as an 
immigration attorney which considers herself pretty well 
informed as to what happens in the country with regards to 
immigration detentions, I am not aware, and that is all that I 
can address to--I am not aware of a single occasion where any 
of the individuals that were brought in, noncitizens, as a 
result of these post 9/11 investigations were, in fact, charged 
with any 9/11 terrorist activity.
    Mr. Conyers. Thank you so much.
    Mr. Pitts.
    Mr. Pitts. Thank you, Congressman. In answer to your first 
questions about changes needed to prevent unjust persecution in 
the PATRIOT Act, we think again that there are three broad 
categories, adding checks and balances, adding independent 
judicial review, and adding requirements of individualized 
fact-based suspicion. We think that those are essential to make 
sure you are not stereotyping innocent Muslims or Arabs. And it 
is interesting how much ignorance there is on this issue. 
People assume that Muslims are Arabs and vice versa when Arabs 
are a small minority of Muslims in the world and the U.S., and, 
of course, Muslims are of as infinite variety as the world 
itself. One out of every 5 people in the world. So the anti-
foreigner provision in section 412 of the PATRIOT Act, for 
example, which allows rolling and potentially indefinite 
detention, and is discriminatory based on the subjective say-so 
of one man is a good example of the discriminatory disrespect 
for the objective rule of law that we need to have effective 
action against terrorism, not stereotyping but identifying the 
real threats.
    Similarly, our racial profiling report last year pointed 
out that racial profiling just doesn't work. Think for a second 
about the most famous alleged members of al-Qaeda, Richard 
Reid, the shoe bomber, British national of West Indian descent; 
or the white guy from California, John Walker Lind, for 
example, or Jose Padilla, Hispanic gang member. You cannot 
possibly say that we are going to profile against people who 
look Middle Eastern and expect to be successful against Al 
Qaeda. What we need to do is not just have formal rhetoric 
against racial profiling, but recognize that the huge, gaping 
national security exception is illegitimate. It allows 
discrimination and a resurgence of religious, national origin 
and race-based discrimination that doesn't work.
    Mr. Conyers. Thank you. Mr. Chairman----
    Chairman Sensenbrenner. The chairperson will recognize the 
witnesses and the time of the gentleman has expired. The 
gentleman from Iowa, Mr. King.
    Mr. King. I thank the Chairman and I appreciate the 
witnesses being here today and those Members of the Committee 
that are here today, and I had the privilege of adjusting my 
travel plans to be someone who could benefit from this 
testimony today. Some of the things that come to mind, I think, 
I will direct initially to Mr. Pitts.
    Could I ask you, if you could define for this Committee, 
the distinction between the standards in a criminal 
investigation with regard to subpoenas, that have been long 
accepted in the United States as something that protects and 
preserves the human rights of all citizens in this country. The 
distinction between that standard and the standard that is 
implemented by the PATRIOT Act with regard to that same type of 
search warrant.
    Mr. Pitts. Absolutely, Congressman King. Thank you for the 
opportunity to clear up the rampant confusion on this point. In 
fact, just a couple of days ago with Deputy Attorney General 
James Comey's testimony before this Committee, he said that the 
standard in the PATRIOT Act is the same thing, probable cause. 
And he reiterated that there is probable cause to be an agent 
of a foreign power. That is a bit misleading, because when you 
read the actual language of the statute, at several points, for 
example, in section 215, the actual standard in the law is that 
an investigation is launched by the subjective interest of the 
law enforcement powers, and the information is sought for the 
purposes of that investigation. That is not a probable cause 
standard. Neither is the standard in section 505, which isn't 
even a relevant standard, the national security letter.
    So there is a dramatic difference between the regular 
criminal authority, which can be challenged. A grand jury 
subpoena can be challenged. That is not allowed under the gag 
orders of those sections of the PATRIOT Act.
    Mr. King. Mr. Pitts, I want to point out that you stated 
before this Committee that your opinions are based upon 
rigorous research, and I would ask the Committee to note that 
you brought a lot of that with you today. I have not seen one 
quite so prepared with their office in front of them. It looks 
like my office, at any rate.
    Mr. Pitts. Sorry for littering your table.
    Mr. King. But the distinction between the legal standard of 
the search warrant being the distinction on a grand jury 
subpoena versus a court order, could you speak to that?
    Mr. Pitts. Absolutely. I welcome again the opportunity to 
clear this up. The FISA warrants of the secretive FISA court, 
which are a secret court that are mandated, they have no 
discretion to refuse the application if they find an informal 
order is very different from the normal criminal process, 
whether it is a grand jury subpoena, which, as I said, can be 
challenged, or whether it is a search warrant, which actually 
is premised on information that generally has a probable cause 
to think that the person or place is guilty of a crime or 
terrorism.
    Mr. King. And you are also aware that there is a report 
required to come before Congress, if there are any abuses of 
the PATRIOT Act, and I would ask if you could name a specific 
case where there has been someone in a library, in a bookstore, 
that has had their human rights violated based upon the 
language in the PATRIOT Act.
    Mr. Pitts. Absolutely, Representative King. This is another 
important point that I welcome the opportunity to clarify. The 
notion that there hasn't been an abuse is one of the most 
egregious myths about this act. First of all, the mere 
existence of these laws as I said is an abuse. It is a chilling 
effect on Americans' rights to get library records. Secondly, 
in the climate of secrecy under the PATRIOT Act, there is no 
way that we can know what abuses have occurred. But thirdly we 
all have, at the ACLU, at Amnesty, the American Library 
Association, the Bill of Rights, defend committees, the other 
witnesses here, have all independently received word of abuses.
    I got an e-mail last week from a librarian, sir, in 
Seattle, Washington, who had been approached by the FBI to give 
a list of all people who had checked out a biography of Osama 
Bin Laden since 9/11. Now she had the courage to refuse that. 
But how are we going to understand our enemy and understand Al 
Qaeda and the truth the threat the violent extremism poses if 
we can't expose Government vulnerability?
    Mr. King. I understand your list of allegations, but I 
wonder if you can give us a specific list of people, 
individuals with names, specific cases that could be looked 
into by this Committee to see if there actually have been 
specific cases of violation of the PATRIOT Act and violations 
of people's human rights rather than the allegations under your 
vigorous research standard?
    Mr. Pitts. Sure. There are a number of people who have been 
affected. Again, it is difficult to know exactly how many 
because librarians are under a--subject to criminal prosecution 
if they report these things. But a number of librarians 
courageously came to me in Dallas, Texas and I heard from 
people that they have been approached.
    Mr. King. Could I ask you, Mr. Pitts, to present that list 
to this Committee? Would you provide that information about 
specific cases?
    Mr. Pitts. I did mention a couple before the Dallas City 
Council when we had a bill of rights defense committee 
resolution on this subject. Toby Baldwin is the name of one 
librarian, for example, who experienced a request.
    Mr. King. Has that been looked into, do you know? Is that 
factual or is it an allegation at this point?
    Mr. Pitts. No. We know that lots of librarians have been 
approached for records. Often the PATRIOT Act is not formally--
--
    Chairman Sensenbrenner. The gentleman's time has expired. 
The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Pitts, let me 
follow through on the probable cause thing, because they shout 
probable cause in a criminal investigation, you have to have 
probable cause that a crime has been committed. Is that not 
right.
    Mr. Pitts. That is correct, sir.
    Mr. Scott. And under the FISA warrant, you only have to 
have probable cause that the target is an agent of a foreign 
government and you are trying to get foreign intelligence which 
may be criminal or not, is that right?
    Mr. Pitts. That is correct. And a key point is that the 
PATRIOT Act, reduces that standard even further in ways that 
have not yet, I think, been realized by the public at large.
    Mr. Scott. You mean, like the probable cause is the agent 
of foreign government and a substantial reason for the wiretap 
is foreign intelligence, but it may not be the main reason, so 
you could be talking about something that is not even a crime, 
that is not even the primary reason you are getting the 
wiretap.
    Mr. Pitts. That is right. That is the problem with one of 
the----
    Mr. Scott. So when they shout probable cause, you have to 
listen very carefully because it is not probable cause that any 
crime is even being alleged as part of the reason for the 
wiretap?
    Mr. Pitts. Exactly.
    Mr. Scott. You mentioned 100 deaths, 27 homicides. What is 
the status of those? How many have been arrested in those 
homicides?
    Mr. Pitts. I am going to let Ms. Pearlstein address that.
    Ms. Pearlstein. Thank you, Mr. Scott. And thank you, Mr. 
Pitts. The status of many of those cases remains unclear 
because of the level of secrecy surrounding the investigations, 
the individual investigations. But to the extent they are 
known, there have been some prosecutions within the context of 
the military justice system and those are welcome.
    The record, however, is completely inadequate, that is to 
say, there are deaths, gruesome deaths, to be frank, that have 
occurred in U.S. custody, people who have been tortured to 
death. Their stories to some extent have appeared on the front 
pages of the paper. And to date, no one, no individual has been 
held criminally or otherwise liable for those deaths. So, not 
only is this a challenge for the Department of Justice, this is 
a challenge for the Department of Defense. And, I think, at 
this point now that these deaths are several years old and the 
trail of evidence and so forth, of course, grows cold, it is 
time for Congress to engage.
    Mr. Scott. Thank you. Dr. Zogby, you mentioned the fact 
that America may be less popular. What impact does that have on 
our war against terrorism? Does it make a difference?
    Mr. Zogby. Sure it does.
    Number one it makes some foreign governments less willing 
to publicly cooperate. Number two, it creates a groundswell of 
support for those who would do harm to our country. The less 
popular we are, the more popular those who attack us are.
    Mr. Scott. And what difference does that make?
    Mr. Zogby. The difference is that the pool of those who are 
available to be recruited to do harm against America grows 
larger, and the ability of governments to act together with 
America becomes smaller. And I will also say that we have seen 
repressive policies instituted by governments in the Middle 
East. Contrary to the President's own program, wanting to 
promote democracy, some of our allies have become more 
repressive precisely because there is an anti-American 
groundswell in those countries as a result of our policies. And 
when we polled in the region, we always found that issues like 
the Arab-Israeli conflict, and more recently Iraq, were sources 
of discontent.
    In the most recent poll that was done by Zogby 
International in the Middle East, we found that America's 
treatment of Arab and Muslim immigrants have, in some 
countries, eclipsed those other issues as the number one source 
of anger with America and the frustration of America in not 
projecting its values, even as it applies to those who live 
within their borders.
    Mr. Scott. And the translation is that the activities make 
us less safe.
    Mr. Zogby. Decidedly so. And I think that we ought not fall 
prey to spinning our successes. We ought to look at the reality 
on the ground. You wouldn't run for office without doing some 
polling. And we do polling, and what we find in our polling is 
that America is actually less popular, and I believe less safe 
as a result of those policies.
    [9:30 a.m.]
    Mr. Scott. Ms. Tapia Ruano, can you talk about holding 
people without charges, and the checks and balances that are 
available when people are held as enemy combatants or material 
witnesses indefinitely?
    Ms. Ruano. Well, what I would like to address, from 
individuals who are alleged to be charged for being here 
engaging in 9/11 terrorist activities, and ultimately result in 
only being charged with civil minor immigration violations. And 
those individuals, again, as I mentioned before, do not have 
the opportunity to even know why they're being detained; 
they're held in custody for months. This is something that, to 
our knowledge, is not happening at the present time. It 
definitely is documented as having taken place immediately 
post-9/11 and for a few months thereafter.
    Mr. Scott. What are the checks and balances available, and 
when do people get to be heard as an enemy combatant?
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from California Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing.
    I would just--I say that at the outset, I've been involved 
in these issues for a long time. I served for a year and a half 
on a panel that looked at, in retrospect, our treatment of 
Japanese nationals and Japanese-Americans during World War II, 
where we were able to review mistakes that were made at that 
time.
    When I ran for Congress this last time, I was accused of 
being soft on terrorism and soft on immigration because I 
supported legislation which gave rights to people who were 
immigrants. I had to respond to an attack that I thought was 
unduly critical and racially and religiously profiling certain 
groups as a part of a political attack.
    Having said that, however, I am somewhat disturbed by the 
contours of the request for this hearing. I wonder why those 
who asked for this hearing did not ask for any witnesses from 
the Administration to be able to respond specifically to the 
allegations that are raised, number one.
    Number two----
    Mr. Conyers. Will the gentleman yield?
    Mr. Lungren. Well, I only have 5 minutes, and the gentleman 
has had 15, I think, so far.
    Number two, some of the statements suggesting that we had 
routine torture that somehow causes the rest of the world to 
respond negatively to us are way over the top. The 
investigations have shown specific examples of inappropriate 
activity, criminal activity by individuals, and they're being 
prosecuted at the present time.
    A statement made about the routine desecration of the Koran 
is absolutely contrary to the facts of the investigation that 
were shown. And the gentleman, Mr. Zogby's, statements that 
those kinds of things, that kind of evidence gives us a 
negative response in the non-U.S. world, the Arab community, 
the Muslim community, ought to be cautionary to those of us 
when we look at these sorts of things.
    One should look in detail at the report with respect to the 
instance involving the Koran. And one, I think, would be 
impressed by the care which is taken by those that at 
Guantanamo Bay with respect to the protection of religious 
rights there. And in those specific instances where there have 
been violations, those have been investigated; action has been 
taken against those people.
    So I just would hope that those on the other side would 
understand the concerns some of us have about the contours of 
this particular activity.
    Secondly, the Creppy memo is no longer followed by the 
Administration. We had testimony to that effect by Mr. Comey, 
testimony to the effect of Mr. Comey that they were trying to 
do things immediately after 9/11 to try and respond to the risk 
and the threat as they saw it at that time, but they have made 
changes, and it is not being followed. That was the direct 
testimony of Mr. Comey under oath here, and I wish that to be 
entered into the record.
    And finally, with respect to section 215, let's understand 
what section 215 is. Section 215 has to be an application to a 
court that has to make a determination, number one, that it 
involves a foreign agent; number two, that it is relevant to an 
investigation against international terrorism or clandestine 
intelligence activities; number three, that it is not directed 
against a United States person solely on the basis of 
activities protected by the first amendment of the Constitution 
of the United States. All of those things have to be shown to 
the court. The court has to make a determination that, in fact, 
those things are present. So the idea that somehow section 215 
is being used willy-nilly to go after people merely because 
they check out books in one particular place or another is just 
not correct. The court does make those determinations. We have 
made specific inquiry with respect to that and found that to be 
the case.
    And finally, I would just say this: It is patently absurd 
to create a moral equivalence between the United States and 
China, Zimbabwe and other countries, as your statement, Mr. 
Pitts, has suggested. If the suggestion is they need examples 
to prop up the activities that they engage in versus their 
citizens, that's patently absurd. The suggestion that somehow, 
because of the passage of the PATRIOT Act, we are leading those 
kinds of countries to involve themselves in abuses of other 
countries is, frankly, I think, seriously amiss.
    This Committee has had--actually, Mr. Chairman, we've had 
11, not 7, 11 oversight hearings in the Subcommittee and full 
Committee on the PATRIOT Act. We have gone over section by 
section by section----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from North Carolina Mr. Watt.
    Mr. Watt. Thank you, Mr. Chairman. And I want to thank the 
Chairman for convening the hearing, even though he is doing it 
according to the rules, and it started out kind of testy.
    And I also thank the Chairman for not interrupting the 
witnesses and applying an overly technical view of this 
hearing. I think it would have served a very negative purpose 
to do that, and I want to applaud you publicly for not doing 
that during the testimony of these witnesses.
    Briefly, I'd just like to reiterate a point that I made 
yesterday in a speech I gave to the Charlotte Chamber of 
Commerce, interestingly enough, in which I said that it is not 
unusual in the aftermath of things like Enron or things like 
the accounting scandals or things like 9/11 for the legislative 
process to overreact and do more than is necessary to address 
or correct the problem, and that the true test of a legislative 
body is really our ability not so much to overreact sometimes, 
but to, once we have overreacted, understand the impact of that 
overreaction and then make the necessary adjustments, because 
all of us are engaged in not a science, but a process of trying 
to find what the appropriate and right balance is in all of 
these situations. And it seems to me that if we try to find 
that balance listening only to the people who have defended the 
action or reaction that the legislative process has made, 
either to Enron or to 9/11 or to accounting scandals or 
whatever we're doing in the legislative process, if we're not 
listening to all of the people who are impacted by these 
decisions, then we do ourselves, as legislators, a real 
disservice, and we do our country a real disservice.
    So I think really that's what we are involved in here, 
trying to find what that appropriate balance is, what was, 
should have been, should be going forward. We found a balance 
in this Committee which we unanimously endorsed, only to see it 
changed in the PATRIOT Act when it went to the Rules Committee.
    And so I just want to generally thank the Chair for the 
series of hearings and these witnesses for being here today to 
help us try to find that balance.
    Now, my colleague on the other side has made a number of 
comments, which I could tell each of you are anxious to respond 
to, and him having run out of time, perhaps I should give Ms. 
Pearlstein at least an opportunity to respond.
    Ms. Pearlstein. Thank you very much, and thank you for your 
comments.
    I want to just respond briefly to the suggestion about the 
prosecution of individual acts of torture and abuse that have 
been identified by the Pentagon as occurring in U.S. detention 
facilities overseas. A handful of these have been prosecuted 
under the Uniform Code of Military Justice. A much larger 
number of them, to the extent they've been dealt with at all, 
have been dealt with by administrative or incredibly light 
disciplinary punishment; that is, revoking of mess hall 
privileges. The vast majority of them have yet to be addressed. 
This is a failure of the Department of Justice. This is a 
failure of the Pentagon. This is why we believe an independent 
commission is needed to look at these things.
    On the point of why the international community and many 
Americans may be frustrated by this----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Arizona Mr. Franks.
    Mr. Nadler. Mr. Chairman, point of order.
    Chairman Sensenbrenner. The gentleman from Arizona Mr. 
Franks is recognized.
    Mr. Nadler. Mr. Chairman, point of order.
    Chairman Sensenbrenner. The gentleman will state his point 
of order.
    Mr. Nadler. Mr. Chairman, it has generally been the 
practice of this Committee that witnesses are permitted to 
finish the sentence so that what they're saying will not be 
interrupted in midsentence----
    Chairman Sensenbrenner. The rules state that the Chair has 
the prerogative to recognize Members and to enforce the time 
limits. The Chair is enforcing the time limits, and the 
gentleman from Arizona Mr. Franks is recognized.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Chairman, sometimes an open, democratic Republic like 
the United States of America is so transparent that both its 
warts and its qualities are seen before the world, and that's a 
healthy practice. But, Mr. Chairman, in recent days we've seen 
and heard comparisons of the policies of the United States and 
the practices even in prisons with the Soviet gulags, that 
somehow the United States has become a negative for the cause 
of human freedom in the world. And I find that to be something 
that completely defies reason in the mind of any person who has 
any historical view of the United States.
    And I think sometimes we do a great disservice to the cause 
of human freedom when we tear down the greatest force for human 
freedom that the world has ever known, and that's the United 
States of America. And, Mr. Chairman, having said that, I'd 
like to direct a couple of questions to Dr. Zogby.
    Dr. Zogby, in your recent testimony, you made the complaint 
that the Justice Department had detained immigrants in the 
aftermath of the 9/11 attacks, but isn't it true that the 
investigation of these individuals had absolutely nothing to do 
with the PATRIOT Act, and, in fact, these events occurred 
before the PATRIOT Act was even enacted; is that correct?
    Mr. Zogby. Some of them were before, and some of them were 
after. The call-ups that occurred following this in October, 
and then later on, I think, in January of 2002 and special 
registration went well beyond the initial round-up, the numbers 
of which we actually don't know. They were making numbers 
public, and at one point they stopped making numbers. People 
got stuck on the 1,200, but frankly the numbers appeared to go 
much higher.
    We don't know the outcome of all of those. There have been 
independent reviews, both within the Department of Justice and 
by groups outside, who have interviewed several of the people, 
both still here in the United States and those overseas. The 
inspector general's report, I think, was very clear on the 
number of those cases that reported abuse, reported horrific 
treatment within the prisons. And I think it is important to 
recognize this is an issue that requires closer scrutiny.
    Ms. Tapia Ruano. If I may also respond to that question?
    Mr. Franks. Let me ask an additional question, Dr. Zogby, 
and then you feel free to respond.
    In your written testimony you also mentioned that the 
detainees--in Guantanamo Bay in general, but isn't it a fact 
that those being held in Guantanamo Bay are not being detained 
pursuant to any authority contained in the PATRIOT Act? And, in 
fact, if the PATRIOT Act was repealed today, would it have any 
effect on the status of these detainees in Guantanamo Bay at 
all?
    Mr. Zogby. I'm not aware and can't speak to that issue, but 
I will tell you the issues I mentioned were Guantanamo and 
other locations around the world. And I was speaking about that 
in the context of what it has done to our image 
internationally.
    And I want to address that and want to address as well the 
remarks raised by Congressman Lungren. The issue of torture. 
You know, once we're authorized the use of practices that 
previously were considered and in international law are 
considered torture, and lowered the standard of what 
constitutes torture so that now sleep deprivation, use of 
creating stress in those under detention, and even physical 
abuse to some degree is not constituting torture, then of 
course the number of those cases that we're going to prosecute 
are going to be less because we absolve people of priority of 
torture by saying this no longer constitutes torture.
    And this is what concerns me is that we have governments in 
the Middle East and elsewhere in the world who now say, we do 
not torture people, we do what the United States of America 
does. That bothers me, and it ought to bother everybody on this 
Committee. It's not covered in the PATRIOT Act, but it is an 
issue that we ought to be concerned about.
    Mr. Franks. Dr. Zogby, just for the record, I think to 
suggest that deliberate routine torture is the committed policy 
or the deliberate policy of the United States defies any sort 
of credibility.
    Mr. Zogby. Sir, I didn't write the memos, I didn't write 
the memos; the memos are there. There is a paper trail about 
what we have done. And I think that the degree to which we 
continue to deny that we've done it, we do not look good in the 
eyes of the world, nor should we feel good about ourselves as 
we face the American people. We have an issue that must be 
addressed, and it will be addressed either by us or future 
generations----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from New York Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. And let me express my 
appreciation for your civility to the witnesses.
    Ms. Pearlstein, you talked about 12,000 prisoners in major 
new permanent detention. Section 412 of the PATRIOT Act, I 
think Ms. Tapia Ruano mentioned that under section 412 the 
Attorney General can detain alien terrorist suspects that he 
designates as such for up to 7 days, and that he must certify 
he has reasonable grounds to believe--et cetera. Within 7 days 
the Attorney General must initiate removal of criminal 
proceedings or release the alien.
    The President, under military order number 13, allows the 
Secretary of Defense to detain designated alien terrorist 
suspects within the United States without express limitation 
and condition, and apparently without any length of time 
restriction. Under what legal authority did the President issue 
that order? And how do they get around the 7-day restriction, 
which was very carefully negotiated in this Committee in 
section 412 of the PATRIOT Act?
    Ms. Pearlstein. I think the short answer to your question 
is there is no clear answer from the Administration to what the 
basis of the legal authority is, and I think it is important to 
distinguish----
    Mr. Nadler. Has that been challenged in court?
    Ms. Pearlstein. The basis of the legality of the detention 
of people being detained at Guantanamo Bay, that people being 
detained in the United States, in particular Jose Padilla, who 
was subsequently released following a ruling of the Superior 
Court, and the detentions in Afghanistan and Iraq have been 
challenged in U.S. courts only in the context of civil 
litigation challenges brought by people who were subsequently 
released from detention, challenging acts of torture and abuse 
that they were subject to while in detention.
    There is currently no mechanism of which I'm aware and no 
suits or any other proceeding through which I'm aware of 
anybody held in custody in Afghanistan and Iraq to challenge 
the legality of their detention in U.S----
    Mr. Nadler. Under section 804 of the PATRIOT Act, I think 
you said, giving jurisdiction abroad,why can't you get a writ 
of habeas corpus?
    Ms. Pearlstein. Section 804 of the PATRIOT Act provides 
only that the Department of Justice now has jurisdiction to 
prosecute offenses that are committed----
    Mr. Nadler. But does not give jurisdiction for the defense 
attorney to question his intentions.
    Ms. Pearlstein. Under that particular provision. All that 
is about is the U.S. Government's prosecutorial authority. The 
Federal habeas statute, which exists on the books separate from 
the USA PATRIOT Act, is still on the books. To my knowledge it 
has not been deployed by a current detainee abroad.
    Mr. Nadler. Thank you.
    Ms. Tapia Ruano, is it true that immigrants who have been 
found eligible for bail have been kept from being released?
    Ms. Tapia Ruano. Yes. And it's even more outrageous to 
consider that immigrants who have been granted legal permanent 
residence after their full merits hearings have also, as a 
result of 9/11, detainee status been retained in jail until 
they received a clearance from the United States.
    Mr. Nadler. Under what authority?
    Ms. Tapia Ruano. Under the regulation that allows 
individuals to be kept under--it's not a regulation, I'm sorry, 
under the understanding of policy memos--I can't point to them 
directly because we haven't seen them in writing, but we know 
it exists--but it is a policy, it's a cooperation that until 
the individual is ``cleared by the FBI, such individual is not 
released, regardless of the decision by the agency.''
    Mr. Nadler. Regardless of the decision of the agency. And 
why aren't people subject to habeas corpus release?
    Ms. Tapia Ruano. Based on my understanding of the law, 
until those individuals are subject to some final order, those 
individuals, in fact, don't have an opportunity to file a 
habeas. Since the Real ID Act was passed very recently, now I 
would suspect--and I haven't been able to study it well enough 
to advise you--but I would suspect that that would also limit 
any right that individuals have to take habeas court 
proceedings if it involves immigration-related relief.
    Mr. Nadler. So an immigration-related case, even after they 
have been found eligible for bail, they can be detained 
indefinitely?
    Ms. Tapia Ruano. The individuals normally--and this happens 
today--individuals, noncitizens, can be detained after they 
have been granted bail by a judge by having the agency, the 
prosecutor, issue a stay of that order----
    Mr. Nadler. The prosecutor or a court?
    Ms. Tapia Ruano. The prosecutor.
    Mr. Nadler. The prosecutor can stay the court's judgment?
    Ms. Tapia Ruano. Absolutely. And that happens every day.
    Mr. Nadler. Do you know of any other area of law where a 
prosecutor can overrule a judge?
    Ms. Tapia Ruano. I'm unfamiliar with other areas of law, so 
I can't really answer that question.
    Mr. Nadler. Anybody on the panel know of any other area of 
law where a prosecutor can overrule a judge's decision to 
release a person on bail?
    Mr. Pitts. Well, it is happening right now. The Supreme 
Court of the United States decided in the Rasul case a year 
ago, the enemy combatant case, that detainees in Guantanamo 
were entitled to a lawyer and to Federal court review, and that 
has not happened----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from North Carolina Mr. Coble.
    Mr. Coble. I thank the Chairman. I thank the witnesses for 
being here.
    I too want to thank Mr. Scott and Members of the Democrat 
and Republican side of the aisle and staffers who have worked 
with me as we conducted nine oversight hearings under the 
Subcommittee on Crime, Terrorism, and Homeland Security, and I 
think this is the 12th hearing. And I take great umbrage, Mr. 
Chairman, when I hear people say, well, you all are trying to 
ram through the PATRIOT Act.
    We're not trying to ram through it at all. After nine 
hearings--and, by the way, the nine hearings were very 
productive, I think. Now, in some instances the witnesses 
departed from the PATRIOT Act, as I may do in my statement, and 
I was generous about that, and I didn't admonish anybody. But 
I've heard some folks claim that the United States has the 
worst human rights record in the world. Folks, that boggles my 
mind. I'm not suggesting that you all said that; others have 
said that to me. Conversely, I think we probably have one of 
the best human rights record than anybody in the world. 
Perfect? No, not by any means, but far more than most 
countries.
    Abu Ghraib, do I support what was done there? Indeed not. 
But, folks, I'm not going to use a broad paint brush to portray 
our men and women in the armed services as being human rights 
abusers. Now, there were a couple, perhaps a limited number, of 
stupid acts that have been addressed through a court martial, 
I'm told, and that is, indeed, appropriate.
    I guess what gets my juices flowing, Mr. Chairman, is when 
I see these thugs, whose faces are concealed by masks that 
cover their face, anxiously waiting to behead innocent 
hostages, when I see that on the one hand, which is a 1-day 
news story, and then we hear about Abu Ghraib, and--and again, 
I'm not defending Abu Ghraib, but the Abu Ghraib story appears 
to be eternal. The thugs who are anxious to behead innocent 
hostages is a 1-day story and obviously not newsworthy. Folks, 
it's damn newsworthy to me and to most Americans.
    And I think these hearings are healthy; I think we are 
plowing sometimes new ground, Mr. Chairman. Sometimes we are 
plowing the ground that has been plowed nine times before, but 
I don't mind doing that if we can get to the truth, if we can 
improve the situation.
    Dr. Zogby, I think you mentioned about 9/11. It's a day 
that will, indeed, live in infamy. We were minding our 
business, and then we were attacked, and over 3,000 people 
killed, and you say many Arab Americans, inexcusable. And if I 
appear to be subjectively involved, I am subjectively involved. 
And before I get too subjectively involved, before the Chairman 
comes down on me, before that red light illuminates, I'm going 
to yield back my time.
    Chairman Sensenbrenner. The gentleman from Maryland Mr. Van 
Hollen.
    Ms. Jackson Lee. Point of order, Mr. Chairman.
    Chairman Sensenbrenner. State your order.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me, first of all, thank my distinguished colleagues Mr. 
Van Hollen and Ms. Wasserman Schultz----
    Chairman Sensenbrenner. The gentlewoman will state her 
point of order.
    Ms. Jackson Lee.--for being willing to yield to me. I want 
to make it clear----
    Chairman Sensenbrenner. The gentlewoman is not stating a 
point of order, and the gentleman from Maryland Mr. Van Hollen 
is recognized.
    Ms. Jackson Lee. Mr. Chairman, I was in the room before my 
two colleagues; however, I will yield to my two colleagues 
because of the disorientation of the Chairman. Thank you very 
much.
    Mr. Van Hollen. I thank my colleague, and I thank all the 
witnesses for their testimony this morning.
    And, Mr. Zogby, I wanted to follow up on a couple of points 
you made, because you talked about the impact on people around 
the world of actions taken here in the United States, and the 
perceptions that that gave to people. And you mentioned those 
in the context of the PATRIOT Act, but also Abu Ghraib and some 
of the indefinite detentions that took place. And you made what 
I think is a very important point that needs to be emphasized, 
which is, this is not about winning a popularity contest. Yes, 
it's nice to be liked around the world, but the most important 
thing that we can do as Americans is to make sure that we 
protect our security.
    But essential to protecting our security is making sure 
that people around the world in many cases have a positive 
impact upon the United States, especially when we're pursuing 
an effort to encourage and promote democracy around the world. 
And as you said, we all share the view that the United States 
must be a leader in promoting democracy and human rights around 
the world, and if we're going to be encouraging elections, free 
and open and fair elections, in places in the Middle East, if 
we're going to be encouraging free and fair elections in many 
other places around the world, then it's important to us how 
people who are going to be voting in those elections perceive 
the United States, because we hope that they will elect leaders 
who will be supportive and friendly toward the United States' 
interests, and to the extent they have a negative view of the 
United States, it's much easier for those who would want to 
demagogue the United States to win in those elections.
    And so an integral part of our democracy promotion effort 
overseas, it seems to me, is making sure that the United States 
continues to be perceived, as it has been in the past, as a 
great leader for freedom and a great leader for human rights. 
And to the extent that we tarnish that image, we hurt our own 
national security interests, and we hurt our ability to fight 
the war on terrorism.
    You've done a lot of work in this area. Could you please 
talk a little bit more about how those negative perceptions of 
the United States can undermine our own efforts to promote 
democracy in those regions in a way that is consistent with our 
national security interests?
    Mr. Zogby. And, Congressman, I thank you. And I would say 
I'm not sure I could do it more eloquently than you've just 
done. I think you have made the case very clear.
    But I would say to you that this is not about us being the 
best or the worst. At the end of the day, there is not a scale 
that judges America with other countries. And I think 
Congressman Coble is right about that. We set a higher standard 
and always have. We have always been and wanted to see 
ourselves be the city on the hill, and that's why democratic 
reformers have looked to us. When they no longer look to us in 
their governance, instead look to us to validate policies that 
bring about repression, then I think we have to examine 
ourselves not only for our foreign policy purposes, but I think 
also for a sense of are we being true to ourselves and to our 
Founders, and to the sense of the value of America that we 
teach our children. I think that is really fundamental here.
    The pictures of Abu Ghraib were not a 1-day story, and they 
shouldn't have been, because that's not who we are. And those 
pictures are going to be soon replicated by other pictures from 
Abu Ghraib that will come out at the end of the month, and we 
will be reminded again and the world will be reminded again 
that America stopped being America.
    The stories of the Koran are not a few, but there are many, 
number one. And number two, the inspector general reported that 
the Department of Justice shows that those very practices took 
place domestically in metropolitan detention centers.
    We need to be fair to who we are. If we deny who we are, I 
think we lose our ability to lead in the world. When foreign 
governments become more repressive--because as people become 
more angry at America and become more angry at their 
government's leadership for being supportive of America, we 
are, in effect, creating a groundswell for terrorism. As we 
said, antidemocratic practices produce terrorism. By those very 
practices that we are encouraging or by example leading other 
governments to pursue, we are making other countries in the 
world less free, we're making the countries less democratic, 
and we're making America a role model for less democratic and 
less free practices. And there is a tragedy in all of that 
because it undercuts our effort to fight terrorism and make us 
more secure.
    Mr. Van Hollen. Thank you. And let me just say----
    Chairman Sensenbrenner. The time of the gentleman has 
expired.
    The gentleman from Indiana Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman. And thank you for the 
long series of hearings that you have held on the PATRIOT Act; 
they have been enormously informative to me as a Member of this 
Committee who was involved in drafting this PATRIOT Act.
    I also want to thank the panel. It is not easy to come 
before Congress, and I am grateful for your patriotism and your 
citizenship displayed today.
    I want to direct my remarks and my questions specifically 
and respectfully to the Chairman of the Board of Amnesty 
International, Mr. Pitts. And let me say I'm a bit of a fan of 
Amnesty International. I actually went to the floor a week 
before the initiation of hostilities against Iraq and for a 
full hour quoted Amnesty International's outstanding research 
on the profound and appalling human rights record of Saddam 
Hussein. Tens of thousands incarcerated. I, frankly, found your 
research to be very moving. Quite a few people in precincts 
around the country didn't appreciate this conservative 
Republican quoting Amnesty International to justify, in part, 
the war, but I have appreciated your work.
    It's in that context that I must tell you, Mr. Pitts, I was 
very troubled by your description of the U.S. detention 
facility at Guantanamo Bay as a gulag of our times. There has 
been a lot said by Mr. Van Hollen a few moments ago and other 
colleagues about the importance of our image in the world, and 
I think prison abuse is an appalling thing, and I'm pleased at 
the aggressive prosecutions that have taken place of military 
personnel who have been accused of that, and believe that that 
should be the case. But I also believe that anti-historical, 
irresponsible rhetoric, like referring to the U.S. detention 
facility at Guantanamo Bay as the gulag of our times, endangers 
the lives of Americans in uniform by fueling the very worst 
stereotypes of our enemies about this country in the world.
    The gulag, of course, was a Soviet system of forced labor 
camps. The word is a Russian abbreviation for the term chief 
administration of camps. In The Gulag Archipelago, the famous 
book by Alexander Solzhenitsyn, he brought the story of the 
gulags to the world; 28.7 million people put into forced labor. 
The death rates in those camps reached their apex in World War 
II. The total number of prison deaths is impossible to 
calculate. It ranges from a low end of 3 million people 
systematically executed or starved to death or worked to death 
in the gulags to numbers of 10, 12 and even 20 million.
    In the book, Gulag: A History, a journalist named Anne 
Applebaumgate writes that after 1937 the camps ``transformed 
themselves from indifferently managed prisons in which people 
died by accident into genuinely deadly camps where workers were 
deliberately worked to death or murdered.''
    It is extraordinary to think of a comparison between a U.S. 
detention facility, where maybe mistakes have been made and 
have been made by American personnel, to the systematic death 
camps of the Soviet empire. It's also peculiar to me that 
Amnesty International would refer to Guantanamo as the gulag of 
our times when there is a much better candidate in the Kwan-li-
co couldn't find system of concentration camps in North Korea. 
North Korea is a bona fide Soviet state run by the son of a man 
who was actually put into power by Stalin. In fact, Kim Jong-il 
was reportedly born in a training camp in Siberia where his 
father was groomed for power. But to suggest that, you know, in 
all of the world the gulag of our times is not the death camps 
that are the natural progeny of the gulags of the Soviet empire 
that exist today in North Korea, but that Guantanamo Bay is, 
that seems to me, as I said, anti-historical, irresponsible and 
the type of rhetoric that endangers American lives.
    Now, I'm not alone in this. It was former Soviet political 
prisoner Vladimir Bukowski who characterized your term as 
``stupid'' and ``an insult to the memory of millions who 
perished in Soviet camps.''
    With all of that said, and I ask this respectfully, Mr. 
Pitts, are you or is Amnesty International prepared to retract 
your statement that the U.S. detention facility at Guantanamo 
is the gulag of our times, or are you prepared before this 
hearing to qualify that before this hearing, given the 
extraordinary record of history of the gulags and the reality 
of gulags in our times in countries like North Korea?
    Chairman Sensenbrenner. The gentleman's time has expired. 
The gentlewoman from Florida----
    Mr. Nadler. Point of order, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman will state his point 
of order.
    Mr. Nadler. I believe it is improper under our rules to 
cast aspersions on the integrity of our witnesses, and I would 
like to give the witness an opportunity to respond to that.
    Chairman Sensenbrenner. First of all, that is not a proper 
point of order; secondly, I believe the gentleman----
    Mr. Nadler. It's a point of decency.
    Chairman Sensenbrenner. Well, point of decencies are 
determined other than by rulings of the Chair.
    The statements that were made by the gentleman from Indiana 
were not impugning the integrity of any of the witnesses, 
including Mr. Pitts, before the Committee; they were value 
judgments on the part of the gentleman from Indiana, Mr. Pence, 
on statements that have been made by representatives of Amnesty 
International other than the witness that is before us.
    Mr. Nadler. I would ask that the witness have an 
opportunity to respond.
    Chairman Sensenbrenner. Without objection, the witness may 
proceed.
    Mr. Pitts. I would like to respond to Mr. Pence's question, 
and also some of the other statements made that Amnesty has in 
some way applied amoral equivalency either with the horrendous 
regime of Stalin, which we were at the forefront of condemning 
the perpetuation of that system in the Soviet Union in the 
1970's and 1980's. And we're not suggesting moral equivalency, 
Mr. Pence, with China, or North Korea or Iran. Our point is 
that it's not Amnesty International that is putting the U.S. in 
this position, and it's not just Amnesty International's 
reports--although we have issued several reports, hundreds of 
pages in each, enumerating numerous instances of torture that 
would break our heart--and I'm prepared to read them if you 
would like. But as we've heard today, it is the Government's 
own reports, it is the reams of Government memos that show that 
we created a black hole, and that the same principles or 
practices that were at play in the gulag--disappearances, 
putting people in the gulag, stripping them, beating them--
these are practices that people that were there we are now 
seeing in Guantanamo.
    How can the U.S. have credibility in condemning North Korea 
as it does, or Iran or Cuba, for arbitrary detentions, for 
beatings, for torturing people when the same things are going 
on in Guantanamo? And Secretary Rumsfeld himself approved 
techniques like forced nudity, like stripping, like hooding 
people. One of the people hooded in Guantanamo, whose name was 
Manadel al-Jamadi, we know died from the hooding, the beating. 
He was one of the ghost detainees that Secretary Rumsfeld 
personally approved.
    And so I don't think it's absurd for Amnesty International 
to make these points, I think it is absurd for the U.S. to 
create that legal black hole. And it's time to fill in that 
legal black hole and shut Guantanamo.
    Chairman Sensenbrenner. The Chair would point out that the 
activities of the Department of Defense are not within the 
jurisdiction of the Judiciary Committee, but are within the 
jurisdiction of the Armed Services Committee, and it is their 
responsibility to investigate allegations and to conduct 
oversights over the Department of Defense.
    The gentlewoman from Florida, Ms. Wasserman Schultz.
    Mr. Conyers. Would the gentlelady yield to me just briefly?
    Ms. Wasserman Schultz. Of course.
    Mr. Conyers. I would like to point out that it is the 
jurisdiction of the Judiciary Committee to consider human 
rights, civil rights, civil liberties violations. That is not 
an inappropriate subject for this Committee. As a matter of 
fact, we have the sole jurisdiction over those concerns.
    I thank the gentlelady for yielding.
    Ms. Wasserman Schultz. You're welcome.
    Mr. Chairman, it is a pleasure to join this Committee. It 
is a baptism by fire for me as a new Member. And as the 
gentleman from Arizona stated, sometimes the world does see our 
version of democracy, warts and all. This proceeding would be 
one version of that democracy.
    I wanted to ask Mr. Zogby if he could discuss the Justice 
Department's claims that it is not racially profiling, but is 
profiling by country of passport. For me, because I represent 
communities in south Florida where we have many Hispanic 
Americans and many Hispanic immigrants who have darker skin, I 
think that they would beg to differ on that difference, and 
that it would be deemed as a difference without distinction. 
And actually, if I could get my questions out to the three of 
you, and then I will be quiet so I can hear your answers and 
not use up my 5 minutes talking.
    My other question would be first, Ms. Tapia Ruano, your 
testimony discussed the secret immigration hearings that are 
taking place. Can you talk a little bit about why the secrecy 
is a problem, and why it's important for the American public 
and the world to know who has been detained? And do we even 
know how many people and who has been detained and for how 
long? And in general, between the two of you, if you can 
discuss what changes you think need to be made to the PATRIOT 
Act, because obviously that is a product that we would like to 
bring forward from the results of this hearing so that legal 
and innocent immigrants, and Americans, who have been unjustly 
punished or detained can receive justice. Thank you.
    Mr. Zogby. Congresswoman, you are right, it is a difference 
without distinction, bottom line. When all the people brought 
in in the call-ins, when people from Arab or Muslim countries, 
there is a single set of characteristics there that constitutes 
profiling. There was no behavior issue at stake; there was no 
broader definition of those who were the target audiences. As 
one law enforcement said, we're looking for a needle in the 
haystack, and all the Department of Justice keeps doing is 
adding more hay to the stack.
    So there are 160,000 in the field with special 
registration, about 83,000 registered. Almost 14,000 of them 
are held deportable, but no terrorist suspects and no 
information about terrorism resulted from any of this. And so 
the result is that it was ineffective, created fear, and it was 
based on crude profiling. It didn't work, and yet it caused 
irreparable damage to a whole lot of young, innocent people 
across the country who are now facing dramatic, life-changing 
decisions because of this program.
    Ms. Tapia Ruano. With regard to these closed hearings, 
these hearings were held in secret, and you asked what is the 
problem with that. Well, we believe part of a democratic 
society which is open, that this is an important concept. Not 
only were the individuals not allowed to have their family 
members and also have other individuals there for moral or 
other support, but family members often didn't even know where 
these individuals were, the fact that they were being held by 
the agency, where they were transferred to, the fact that they 
were facing any possible expulsion from the United States. And 
that created an enormous amount of anxiety.
    What's the solution? Well, eliminate closed hearings with 
regard to blanket closed hearings, which is what these rules 
allow, just blanket closed hearings, without taking a look at 
was it justified, was there any possible reason to sustain the 
need to have a hearing closed.
    We believe that the act that I mentioned just before, the 
Civil Liberties Restoration Act, is a solution to that by 
prohibiting closed hearings except in situations where a judge, 
after reviewing the individual facts, determines that it is in 
the interest of national security, or because of sensitive 
information, or at the choice of the individual detained. Those 
are rational, legal, fair reasons to have a closed hearing. But 
blanket closures, without the consent of the parties involved, 
appears to be abhorrent to our system.
    Ms. Wasserman Schultz. Mr. Chairman, if I can just also 
point out and request permission to note that I apologize for 
being tardy. I arrived at 8:38, and wanted to have my presence 
noted for the record. And I yield back.
    Chairman Sensenbrenner. And your presence is noted, and 
your contribution is appreciated.
    The gentlelady from Texas Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Conyers, for your 
insight on holding what I think may be one of the more crucial 
constitutional hearings that we may have in the history of this 
particular judiciary body.
    Let me also thank Mr. Coble and Mr. Scott, as a Member of 
their Subcommittee, for the number of hearings that have been 
held, as well recognize the fact that this hearing is being 
held today.
    I don't want this hearing to center around any one Member, 
but I do want to relate what I think we're trying to do today, 
and I really hope that we can do this in a bipartisan manner.
    I think you remember, Dr. Zogby, that we did produce a 
bipartisan PATRIOT Act out of this Committee, with the 
partnership of the Chairman and the Ranking Member and all of 
us. Ultimately when the bill went to the floor, it lost all of 
its bipartisanship and began to become a product of the 
Majority. In essence, the tyranny of the Majority ruled.
    What I'm concerned about is that we're being clouded by our 
rightness on an issue, refusing to look at how we can fix 
problems. Reminds me of the time when this country held slaves 
for 400 years and refused to acknowledge the wrongness of that 
terrible act, and again, we were ruled by the tyranny of the 
Majority. Even reflecting upon President Lincoln's decision, 
history will tell you that it was not for the humanitarian 
needs of the slaves, but for some other reasons.
    Then I cite prior to the attack by the Japanese on Pearl 
Harbor our refusal to acknowledge the Holocaust that was going 
on in the 1930's before we entered World War II; again, 
refusing to acknowledge dark times in our history.
    The brutality of the civil rights movement in the 1950's 
and 1960's, we refused, for a period of time, to acknowledge 
the dark time in the history of America; just a few years ago 
when we turned the lights out on the brutality of a million 
people in Rwanda.
    So I think what we have an opportunity to do today, as we 
all embrace those who lost lives and the families of 9/11, I 
don't think there was an American of any race, color or creed 
that did not mourn, did not fall to their knees, did not pray 
to their person of faith, who they believed in during that 
time. And so I think where we're going here today and the tone 
that I've heard by some of my colleagues is again trying to 
turn the lights out on absolute abuses.
    My question is, one, are there any checks and balances 
under the PATRIOT Act to even prove one's innocence? That is a 
general question that I have.
    Ms. Ruano, I want to know what have we done by diminishing 
the powers of the Bureau of Immigration Appeals so that there 
is no due process? How do Americans understand that by due 
process being eliminated from that Bureau, you are really 
beginning to eliminate due process rights for others as well?
    Dr. Zogby, I think it's important, a point that you made 
earlier, that immigration does not equate to terrorism. Tell 
me, what kind of intimidation is fusing through the Muslim 
community in the United States and around the world because of 
that synonym now seems to be coming together?
    Amnesty International, I'd appreciate if you would again 
speak to Guantanamo and as well the specifics of why the sort 
of elusiveness or unclarity, if I might say, of what Guantanamo 
means is putting young soldiers in Afghanistan and Iraq in 
jeopardy of their lives.
    And, Ms. Pearlstein, I would ask you as well about--if you 
would again speak to this whole question of detention, people 
being picked up randomly. And others may wish to comment on 
this whole registration of Muslims or Pakistani individuals 
which generated, I believe, no conviction and no arrests of 
terrorism.
    And lastly let me say under the PATRIOT Act we have 
Minutemen at the border. That is what we are being driven to at 
this point. America needs to understand that we're in dark days 
that is not reflective of our fears of 9/11. And I would 
appreciate your answers on those questions. I hope we can turn 
the lights on in this room.
    Chairman Sensenbrenner. Nineteen seconds left of her 5 
minutes.
    Mr. Zogby. I would like to submit my testimony in full for 
the record to those questions for my part.
    Chairman Sensenbrenner. Without objection.
    Ms. Tapia Ruano. And I will just say one comment. The 
concern is, when you abuse noncitizens' due process rights, it 
is not going to take much more to abuse citizens' rights.
    Ms. Pearlstein. If I could just also submit for the record 
the recent report of the Human Rights First called Behind the 
Wire----
    Chairman Sensenbrenner. Without objection.
    [The information referred to can be found in the Appendix.]
    Ms. Pearlstein. And also a recent report called Getting to 
Ground Truth, which responds, I think, to the questions----
    Chairman Sensenbrenner. Without objection.
    [The information referred to can be found in the Appendix.]
    Mr. Pitts. And I will submit our report on the specifics of 
Guantanamo. But I want to point out briefly that not just 
Amnesty, but academic institutions, Rand, International 
Institute for Strategic Studies, our own State Department have 
noted that terrorism is on the rise. And I think that's more 
than just correlation, it's causation.
    Chairman Sensenbrenner. Without objection.
    [The information referred to can be found in the Appendix.]
    Mr. Conyers. Mr. Chairman, I would ask that the gentlelady 
from Texas be given enough time to have brief remarks from any 
of the witnesses before we close down. She is the last----
    Chairman Sensenbrenner. How much time does the gentleman 
from Michigan request that the gentlewoman from Texas be 
granted?
    Mr. Conyers. Four minutes, 1 minute for each of the 
witnesses.
    Chairman Sensenbrenner. Is there objection to the request 
of the gentleman from Michigan to give each--an objection is 
heard.
    Mr. Conyers. Mr. Chairman, I have a list of documents that 
I ask unanimous consent to submit to the record.
    Chairman Sensenbrenner. Without objection.
    [The information referred to can be found in the Appendix.]
    Chairman Sensenbrenner. The Chair now recognizes himself.
    First, the Chair would like to thank all the witnesses for 
coming and appearing, and particularly preparing your testimony 
on short notice.
    Let me say that the purpose for which this hearing was 
called and the scope of the hearing was stated in a letter that 
was submitted to me, signed by the Democratic Members, which 
was the reauthorization of the USA PATRIOT Act. I have sat here 
listening very patiently to the testimony and the answers to 
the questions, and much of what has been stated is not relevant 
to the 16 sections of the USA PATRIOT Act which were sunsetted 
when the law was enacted in October of 2001.
    One of the things that people who are opposed to the 
PATRIOT Act have been doing is stating that the PATRIOT Act was 
responsible for a whole host of frustrations or objections to 
Administration policy. This hearing confirmed that fact, that 
the PATRIOT Act is being used as a buzzword for people who have 
very broad-brush objections.
    I think that when Congress debates the reauthorization of 
the PATRIOT Act, we ought to stick to the subject, and that 
subject is the 16 provisions of the PATRIOT Act which we must 
consider and decide whether to reauthorize, whether to lapse or 
whether to amend.
    The PATRIOT Act has nothing to do with Guantanamo; the 
PATRIOT Act has nothing to do with enemy combatants; the 
PATRIOT Act has nothing to do with indefinite detentions. Those 
were provisions of other sections of the law, many of which 
occurred prior to the enactment of the PATRIOT Act in October 
of 2001.
    The so-called Creppy memorandum, which had a blanket 
closure of immigration proceedings, was issued before the 
PATRIOT Act was enacted, and the Deputy Attorney General 
testified earlier this week that it's no longer being followed.
    And some of the testimony related to provisions of the 
PATRIOT Act that were not sunsetted, and this Committee put the 
sunset on provisions of the law which actually increased the 
powers of law enforcement, but did not put the sunset on those 
provisions of the law which restated the powers that law 
enforcement had had prior to October of 2001.
    I think particularly irresponsible and indicative of the 
broad-brush accusations of the PATRIOT Act was what I just 
heard, saying the PATRIOT Act has resulted in Minutemen being 
on the border. That's not true, and that's irresponsible, and I 
think anybody who knows what is going on----
    Ms. Jackson Lee. Will the gentleman yield?
    Chairman Sensenbrenner. No, I will not yield--will see that 
fact.
    Let me say that I think this hearing very, very clearly 
shows what the opponents of the PATRIOT Act are doing. They 
will talk about practically everything but what's in the 
PATRIOT Act and what this Committee is considering. The only 
really relevant testimony that I heard was from Mr. Pitts, 
relative to section 215 of the PATRIOT Act that said that 
librarians have been receiving all kinds of questions from law 
enforcement. I'd like to ask you, Mr. Pitts, to submit for the 
record the names of the librarians that have received actual 
section 215 orders from the FISA Court to produce business 
records, and we will give you a week to put that in the record.
    [The information referred to can be found in the Appendix.]
    Chairman Sensenbrenner. So thank you all for coming today. 
I thank the Members----
    Ms. Jackson Lee. Will the gentleman yield?
    Mr. Nadler. Mr. Chairman.
    Ms. Jackson Lee. Will the gentleman yield?
    Chairman Sensenbrenner. And the Committee is adjourned.
    [Whereupon, at 10:23 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary

    There are few issues that are more important to this Committee or 
this Congress than the PATRIOT Act and the war against terror. This not 
only affects the rights and privacy of every American, but impacts the 
extent to which our nation is able to hold itself out as a beacon of 
liberty as we advocate for democracy around the world.
    For many of us, this process of hearings is not merely about 
whether we should extend 16 expiring provisions of the USA PATRIOT Act; 
it is about the manner in which our government uses its legal authority 
to prosecute the war against terror, both domestically and abroad. As 
we will hear from our witnesses today, those authorities have been 
abused.
    We will learn from Amnesty International about the routine torture 
and degradation of detainees in American-run prisons that clearly 
violate American and international law. Both then-White House Counsel 
Gonzales and the Department of Justice conspired to create an end-run 
around the international and U.S. laws that criminalize that sort of 
behavior. While the Justice Department has supposedly reversed those 
opinions, it still refuses to charge those in its jurisdiction.
    We will also receive testimony concerning the illegal detention and 
mistreatment of individuals at Guantanamo Bay. A federal court has 
found their detention and denial of legal process to be 
unconstitutional under the Fifth Amendment and illegal. And after the 
recent confirmation that jailers there desecrated the Koran, it's 
clearly time for the military to shut the Guantanamo facility down.
    We will also learn about the abuse of the immigration system to 
unjustifiably detain and harass men of Middle Eastern descent. Our 
Justice Department held over 1,000 people in the wake of 9/11, and the 
Inspector General has found the detentions to violate the law. But no 
one has been punished, and nothing has been done to ensure it doesn't 
happen again.
    Finally, we will receive testimony concerning the failure of our 
Administration's racial profiling tactics. Not only are tactics like 
these immoral, they have been proven to be completely useless in the 
war on terror. For example, our government's registration of 80,000 
Middle Eastern men did nothing but create a deportation nightmare for 
families who had long been upstanding members of our communities. And 
not a single terrorist was found. Let me repeat that--not a single 
terrorist was found.
    Yesterday, the president announced with much fanfare that we need 
to not only reauthorize but expand the PATRIOT Act. But rather than 
making us safer, the abuses and excesses of our war against terrorism 
are actually tarnishing our nation's reputation and making us less 
safe. The testimony we are receiving today--and introducing into the 
record--will make that point abundantly clear.

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Response by Amnesty International to request for additional information 
                  requested by Chairman Sensenbrenner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <greek-l>Beyond the Wire and Getting to Ground Truth deg.``Behind the 
 Wire'' submitted for the record by Deborah Pearlstein, Director, U.S. 
                        Law and Security Program

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``Getting to Ground Truth'' submitted for the record by Deborah 
          Pearlstein, Director, U.S. Law and Security Program

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <greek-l>Guantanamo and Beyond deg.Guantanamo and Beyond: The 
 Continuing Pursuit of Unchecked Executive Powers'' submitted for the 
  record by Chip Pitts, Chair of the Board, Amnesty International USA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Article, James Sturcke, ``General Approved Extreme Interrogation 
                  Methods,'' Guardian, March 30, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Article, Bob Herbert, ``America a Symbol Of . . . ,'' New York Times, 
        May 30, 2005, available on Westlaw at 2005 WLNR 8545594

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Article, Neil A. Lewis & Christopher Marquis, ``A Nation Challenged: 
 Immigration, Longer Visa Waits for Arabs,'' New York Times, November 
          10, 2001, available on Westlaw at 2001 WLNR 3372678

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Article, Bob Herbert, ``Stories from the Inside,'' New York Times, 
      February 7, 2005, available on Westlaw at 2005 WLNR 1682135

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Article, Tim Golden, ``Threats and Responses: Tough Justice; After 
 Terror, a Secret Rewriting of Military Law,'' New York Times, October 
          24, 2004, available on Westlaw at 2004 WLNR 4788371

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Article, Douglas Jehl, Neil A. Lewis, & Tim Golden, ``The Reach of War: 
Guantanamo: Pentagon Seeks to Shift Inmates from Cuba Base,'' New York 
    Times, March 11, 2005, available on Westlaw at 2005 WLNR 3773506

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Article, Tim Golden, Ruhallah Khapalwak, Charlotte Gall, & David Rohde, 
``The Bagram File: In U.S. Report, Brutal Details of 2 Afghan Inmates' 
 Deaths,'' New York Times, May 20, 2005, available on Westlaw at 2005 
                              WLNR 7990089

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Article, Tim Golden, ``The Bagram File: Army Faltered in Investigating 
Detainee Abuse,'' New York Times, May 22, 2005, available on Westlaw at 
                           2005 WLNR 8112977

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Report, American Civil Liberties Union, ``Independence Day 2003,'' 
                              July 3, 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Report, Human Rights Watch, ``We Are Not the Enemy,'' November 2002

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Report, Human Rights Watch, ``Presumption of Guilt,'' August 2002

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Report, Human Rights Watch, ``The Road to Abu Ghraib,'' June 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Report, Human Rights Watch, ``Still At Risk,'' April 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Report, Human Rights Watch, ``Getting Away With Torture?,'' April 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Report, American Civil Liberties Union, ``Sanctioned Bias,'' February 
                                  2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Report, American Civil Liberties Union, ``Unpatriotic Acts,'' July 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Report, Irene Kahn, Amnesty International, ``Denounce Torture, 
                  Report 2005, Forward,'' May 25, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Statement, Alexandra Arriaga, Amnesty International, 
             ``Stop Outsourcing of Torture,'' May 10, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Amnesty International, ``United States of America, Guantanamo--an icon 
                   of lawlessness,'' January 6, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Report, Amnesty International, ``Human Dignity Denied: Torture and 
        Accountability in the War on Terror,'' October 27, 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Report, Center for Civil Rights, 
         ``The State of Civil Liberties One Year Later,'' 2002

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Report, Nancy Chang & Alan Kabat, Center for Civil Rights, ``Summary of 
    Recent Court Rulings on Terrorism-Related Matters having Civil 
                Liberties Implications,'' March 8, 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Report, Anjana Malhotra, ``Overlooking Innocence: Refashioning the 
 Material Witness Law to Indefinitely Detain Muslims Without Charges''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Report, American Civil Liberties Union, ``Conduct Unbecoming: Pitfalls 
         in the President's Military Commissions,'' March 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Report, American Civil Liberties Union, ``America's Disappeared: 
 Seeking International Justice for Immigrants Detained After September 
                            11, January 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Report, American Civil Liberties Union, ``Seeking Truth From Justice, 
 PATRIOT Propaganda: The Justice Department's Campaign to Mislead The 
             Public About the USA PATRIOT Act,'' July 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Article, New York Times, ``Just Shut It Down,'' May 27, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Article, USA Today, ``Biden: U.S. needs to close Cuba prison,'' June 6, 
                                  2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Letter to the Honorable Alberto R. Gonzales, 
                 Attorney General of the United States

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
